<html>
<title> - REAUTHORIZATION OF THE CORPORATION FOR PUBLIC BROADCASTING</title>
<body><pre>[Senate Hearing 108-955]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-955
 
                  REAUTHORIZATION OF THE CORPORATION 
                        FOR PUBLIC BROADCASTING

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
81-579                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel

               Gregg Elias, Democratic General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2004....................................     1
Statement of Senator Lautenberg..................................    46
    Prepared statement...........................................    47
Statement of Senator Lott........................................     2
    Prepared statement...........................................     3
Statement of Senator McCain......................................     1
Statement of Senator Nelson......................................    43
    Prepared statement...........................................    44
Statement of Senator Rockefeller.................................     2
Statement of Senator Sununu......................................     4

                               Witnesses

Burns, Ken, Filmaker, Florentine Films, on Behalf of PBS.........    23
    Prepared statement...........................................    26
Cox, Kathleen, President and CEO, Corporation for Public 
  Broadcasting...................................................     4
    Prepared statement...........................................     6
Frid, Peter A., CEO and General Manager, New Hampshire Public 
  Television on Behalf of the Association of Public Television 
  Stations.......................................................    35
    Prepared statement...........................................    37
Matthusen, Carl, General Manager, KJZZ-FM, KBAQ-FM and Sun Sounds 
  Radio Reading Services.........................................    14
    Prepared statement...........................................    16
Taylor, Loris Ann, General Manager, KUYI Hopi Radio..............    29
    Prepared statement...........................................    31

                                Appendix

Response to written question submitted by Hon. Byron L. Dorgan to 
  PBS............................................................    55
Statement of the National Minority Public Broadcasting Consortia: 
  National Asian America Telecommunications Association, National 
  Black Programming Consortium, Latino Public Broadcasting, 
  Native American Public Telecommunications, Pacific Islanders in 
  Communications.................................................    53


       REAUTHORIZATION OF THE CORPORATION FOR PUBLIC BROADCASTING

                              ----------                              


                         TUESDAY, JULY 13, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Today, the Committee meets to 
hear testimony about the reauthorization of the Corporation for 
Public Broadcasting. The CPB has not been authorized since 
1996. We'd like to address this situation by introducing a bill 
today to reauthorize the CPB for 7 years.
    In 1967, the Congress created the CPB, declaring, quote, 
``It's in the public interest to encourage the growth and 
development of public radio and television broadcasting, 
including the use of such media for instructional, educational 
and cultural purposes.'' Today the CPB continues to provide 
financial and organizational support to the Nation's 356 public 
television stations and almost 800 public radio stations.
    A recent General Accounting Office report noted that 79 
percent of the public television licensees surveyed found that 
the amount of local programming they currently produce is not 
sufficient to meet local community needs; 85 percent of the 
stations surveyed stated they do not have adequate funds for 
local programming, or that they would produce more local 
programming if they could obtain additional sources of funding.
    The bill that I and others will introduce would provide the 
Corporation the explicit authority to award grants for the 
production and acquisition of local programming, including 
local digital programming. It's my hope that the local stations 
will use these available funds to produce more local 
programming to fill the void some commercial broadcasters have 
left in local communities.
    I welcome the witnesses and thank them for appearing today 
to discuss the reauthorization of CPB and public broadcasting.
    Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. And I also 
welcome the witnesses.
    I am required by ethical laws in the Senate to report that 
my wife Sharon is in the audience, and she's the CEO and 
President of WETA in Washington.
    The Chairman. And the brains of the family.
    [Laughter.]
    Senator Lott. We can all agree on that.
    [Laughter.]
    Senator Rockefeller. I would hope very much that--as we 
proceed on this, that will be very sensitive to the fact that--
this whole question of the trust fund and all the rest of it--
in rural areas, the requirement to switch to digital pretty 
much knocks a lot of stations out of business if they actually 
go ahead and do it, and that we would be very careful, as we 
proceed, to protect the financial integrity, and, hence, the 
program integrity, and, hence, the integrity generally, and 
survivability, of rural public broadcasting stations.
    I thank the Chairman.
    The Chairman. Senator Lott.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman. Thank you for having 
this hearing today on the reauthorization of the Corporation 
for Public Broadcasting.
    Far too many times in the past, we never got around to 
doing the reauthorization legislation on a variety of issues, 
and it wound up being done late, or not at all, or in the 
appropriations bill. The best way to avoid that is to have the 
hearings and mark up a reauthorization bill, address some of 
the questions that may be out there, and then move the 
legislation forward. I think it's important we be involved in 
the detailed process of reauthorization, and I thank the 
Chairman for directing the Committee's focus to the Corporation 
for Public Broadcasting.
    I want to thank the witnesses for being here. I do have a 
commitment later to be on the floor for some remarks, but I'm 
going to stay as long as I can, because I look forward to 
hearing what the witnesses have to say.
    The Corporation for Public Broadcasting is assigned the 
important task of overseeing the distribution of Federal funds 
to public broadcasting stations in this country, ensuring that 
Federal funds are utilized for national programming, and 
maintaining universal access to educational programs and 
services that are offered through public broadcasting.
    Public broadcasting does fill a vital niche that people 
benefit from and enjoy, and I think it's important that we make 
sure that that niche is filled and that we don't leave all of 
our access just to commercial broadcasters.
    I do think it's extremely important that we meet the 
statutory requirement for ``objectivity and balance,'' quote/
unquote, in programming by the Corporation for Public 
Broadcasting in order to ensure a fair and impartial approach 
is taken. I have long been concerned that the funding 
appropriated by Congress to be administered by the CPB has been 
used to advocate, on occasion, biased and partisan agendas, at 
times. I think a real effort has been made to work through 
that. I think progress has been made. And I congratulate the 
board for the work that's been done there. It has been done 
carefully and meticulously and without a sledgehammer, and I 
think you're to be commended for that.
    I also want to take a moment just to express my 
appreciation for the achievements of the Mississippi Public 
Broadcasting. My home state's Public Broadcasting Network does 
an excellent job in serving the people of Mississippi. I 
appreciate what they do. And, on occasion, they have refused to 
carry certain programming; on other occasions, they've done 
really innovative programming. If every state's organization 
works like ours does to inform the people and contribute to 
their enjoyment going to the rural areas, then it's certainly 
working quite well.
    And I thank you for being here this morning and for having 
the hearing.
    [The prepared statement of Senator Lott follows:]

  Prepared Statement of Hon. Trent Lott, U.S. Senator from Mississippi
    Mr. Chairman, thank you for holding this hearing today to consider 
the reauthorization of the Corporation for Public Broadcasting. I am 
pleased that this Committee has been more proactive in considering the 
reauthorization of the agencies and other entities which are within the 
Committee's jurisdiction. It is important that we engage in the 
detailed work of the reauthorization process, and I thank the Chairman 
for directing the Committee's focus to the Corporation for Public 
Broadcasting.
    The Corporation for Public Broadcasting is assigned the important 
task of overseeing the distribution of Federal funds to the public 
broadcasting stations in this country, insuring that Federal funds are 
utilized for national programming, and maintaining universal access to 
the educational programs and services that are offered through public 
broadcasting. Public broadcasting can and does fill a vital niche that 
would not otherwise be filled by commercial broadcasters. However, it 
is important that the statutory requirement for ``objectivity and 
balance'' in programming be followed by the Corporation for Public 
Broadcasting in order to insure that a fair and impartial approach is 
always taken. I have long been concerned that the funding appropriated 
by Congress to be administered by the Corporation for Public 
Broadcasting--money that belongs to the people--has been used to 
advocated biased and partisan agendas at times.
    There has been improvement in recent years as the Corporation for 
Public Broadcasting has refocused on meeting its statutory obligation 
to achieve ``objectivity and balance'' and stepped up its efforts in 
this area. I want to take this opportunity today to encourage the 
Corporation for Public Broadcasting's Board and staff to continue to 
make progress in facilitating the development of programming which is 
objective and balanced, and I would remind the witnesses today of this 
statutory requirement. When Americans tune into their local public 
television or radio station, they should receive news, entertainment, 
and educational programming that informs, enlightens, and teaches them 
and provides the tools they need to make independent judgments. We must 
continue to strive towards meeting this goal.
    I do not want to miss an opportunity to recognize the achievements 
of Mississippi Public Broadcasting. My home state's public broadcasting 
network does an excellent job of serving the people of Mississippi, and 
I appreciate the good job that they do. I know several of the witnesses 
here today know personally of the challenges that must be met in 
running quality public radio and television stations. The 
reauthorization of the Corporation for Public Broadcasting is a key way 
in which we can continue to help our state and local public 
broadcasting systems, and I look forward to the testimony today for the 
guidance it will provide in this process.

    The Chairman. Thank you.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Mr. Chairman, I want to thank you for 
stacking the panel with representatives from New Hampshire----
    [Laughter.]
    Senator Sununu.--and welcome my friends, Peter Frid and Ken 
Burns. They've done great things to strengthen public 
broadcasting and the quality of the content in broadcasting, 
not only in New Hampshire, but across the country, and I thank 
them for their contribution and for their testimony today, as I 
do all the panelists.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Our panel today is Ms. Kathleen Cox, who is the President 
and Chief Executive Officer, Corporation for Public 
Broadcasting; Mr. Carl Matthusen, who is the General Manager of 
KJZZ, in Tempe, Arizona; Mr. Ken Burns, a distinguished 
filmmaker, of Florentine Films, of Walpole, New Hampshire; Ms. 
Loris Ann Vicente-Taylor, General Manager, KUYI, the Hopi 
Foundation, Keams Canyon, Arizona; and Mr. Peter Frid, the 
Chief Executive Officer and General Manager, New Hampshire 
Public Television, at the University of New Hampshire.
    Welcome. We'll begin with Ms. Cox. Welcome.

 STATEMENT OF KATHLEEN COX, PRESIDENT AND CEO, CORPORATION FOR 
                      PUBLIC BROADCASTING

    Ms. Cox. Mr. Chairman and Members of the Committee, thank 
you for inviting me to testify before you today on the 
reauthorization of the Corporation for Public Broadcasting. My 
thanks, as well, to the Committee staff on both sides of the 
aisle for the thoughtful and constructive approach they have 
taken to amending the Public Broadcasting Act, and particularly 
for the courteous and attentive hearing they have given to our 
comments.
    Before turning to the legislation, I'd like to take a 
moment to introduce myself to the Committee and to say a few 
words about how I see CPB's role and where I think our most 
important tasks lie.
    First of all, on day 12 of my tenure as President of CPB, I 
must say that I am, indeed, honored to be at this hearing. As 
the former General Counsel of CPB, I worked with the Public 
Broadcasting Act on nearly a daily basis, and I welcome the 
opportunity to work toward its reauthorization.
    Nearly 40 years ago, recognizing the potential power of 
broadcast technology to serve the public interest, the 
predecessor to this Committee was instrumental in creating the 
public broadcasting system. The result is an extraordinary, 
distinctive, community-based partnership embracing public 
broadcasting, the American people, and their elected 
representatives. This partnership has yielded compelling public 
service programming and services without parallel in the media 
history of this country.
    We are now at a moment that calls for similar foresight, 
reflection, and judgment. Broadcasting is undergoing its 
biggest period of change since the arrival of television and 
radio broadcast. As recently as the early 1990s, television 
broadcasting was available on only a handful of channels, 
satellite radio was just developing, and no one, beyond a few 
research workers, had even heard of the Internet, let alone 
thought that it had anything to do with television and radio. 
Today, digital cable and satellite radio are here to stay. The 
Internet has changed the very fabric of our lives, transforming 
society.
    Along with these dazzling breakthroughs in communication 
and information technology come some critical policy issues. 
How do we make sure that all Americans have access to these new 
and increasingly essential technologies? How can we ensure that 
the public interest is served in this information age?
    Public broadcasting is a structure in which a series of 
competing, sometimes almost contradictory, goals are balanced. 
It is a system that receives federally appropriated dollars, 
yet remains free of government control of its content. Equally 
important, it is a system composed of local broadcasters who 
schedule their programs, raise their own funds, and decide how 
best to serve their audiences, yet one that must be 
collectively strong enough to meet the needs of a national 
audience. CPB plays a significant role in that structure.
    CPB is a private, nonprofit corporation outside the 
government enclave. It is prohibited from producing or 
distributing programming, but responsible for facilitating 
high-quality content for the system of stations and the 
American public. CPB may not, itself, broadcast or own or 
control stations. Instead, it acts an honest broker, 
administering and distributing the appropriations to stations 
and producers, and providing the guidance and insight that 
comes with a systemwide view. It is also a heat shield, 
insulating public broadcasters from government efforts to 
exercise undue influence on editorial freedom.
    CPB does not make programs or broadcast them, and we don't 
do outreach or raise funds, but we can help create the 
conditions in which these things, and so many more, can happen. 
Without the pressure of day-to-day decisions about what 
programs to air, CPB can take the long view. We can look at the 
system as a whole, not station by station, spotting problems 
and identifying possible solutions. And when there are unmet 
needs for a certain kind of programming or research or 
training, we can step in to provide it.
    CPB is guided by the principle of localism, that local 
stations make the best decisions about public broadcasting in 
their own communities, but localism does not mean, and cannot 
mean, local-only. CPB's ability to direct resources to 
systemwide needs ultimately offers more benefits to individual 
stations than they would otherwise receive. To paraphrase 
Abraham Lincoln, CPB does for the community of stations what 
they cannot do at all in their separate and individual 
capacities.
    National programming, for example, is not something set 
apart from the work of stations, but a resource that draws 
listeners and viewers, and ultimately members, and that 
educates, informs, enlightens, and enables them to participate 
more fully in the lives of their community. Although CPB does 
not, itself, produce programming, it does fund and commission 
programming based on assessment of the system needs.
    To this end, CPB is conducting the largest audience 
research project ever in public broadcasting history. The 
results will help producers and programmers ground decision-
making about prime-time public television and knowledge about 
audiences and members, effectively bringing audiences into the 
room when decisions are being made.
    To bring new voices and viewpoints into the important 
national conversation about America after September 11, CPB is 
funding a new initiative, America at a Crossroads. We've 
received more than 425 proposals, the most in our history; and 
361 one of them were from first-time applicants.
    This fall, the CPB-funded ``Maya and Miguel'' will debut on 
PBS. This is a program for kids old enough to have graduated 
from Sesame Street, and one that speaks, sometimes literally, 
to Latinos, America's fastest-growing minority. We are 
providing major funding for Public Radio Exchange, a system 
that makes independently produced content easily available to 
station programmers. And we are helping Alaska's stations meet 
their special programming needs by funding installation of a 
broadband data network that will allow stations to share 
content with each other on a 24/7 basis.
    CPB's view across the whole system informs more than 
programming. CPB funded a study of public television finances 
that identified major gifts as an untapped revenue source for 
stations. Working with the station community, we developed a 
curriculum that every station can use to create its own major 
giving plan. The response has been overwhelming. We expect that 
about 120 licensees, almost two-thirds of the total, will 
participate in this initiative. With strong support from 
Congress, we have been able to assist public radio and 
television stations to make the transition to digital 
broadcasting, and we are providing grants to small radio 
stations to develop their online services.
    The Public Broadcasting Act has proven itself resilient in 
the face of change, and its goals are perhaps more relevant 
than ever in these days of media concentration and frenetic 
commercialism. We appreciate this Committee's work toward the 
reauthorization of CPB. I would be remiss, however, if I failed 
to mention the continuing importance of adequate Federal 
funding to public broadcasting, which begins with the 
authorization levels provided by this Committee. We look 
forward to continuing the dialogue with the Committee, and with 
the goal of making public broadcasting available and accessible 
to all Americans.
    Again, I thank this Committee for its major role in the 
creation and nurturing of public broadcasting, and I look 
forward to continuing to work with you. And I'll be happy, of 
course, to take any questions.
    [The prepared statement of Ms. Cox follows:]

        Prepared Statement of Kathleen Cox, President and CEO, 
                  Corporation for Public Broadcasting
    Thank you, Mr. Chairman and members of the Committee, for inviting 
me to testify before you today on the reauthorization of the 
Corporation for Public Broadcasting. My thanks as well to the Committee 
staff on both sides of the aisle for the thoughtful and constructive 
approach they have taken to amending the Public Broadcasting Act, and 
particularly for the courteous and attentive hearing they have given to 
our comments.
    Before turning to the legislation, I'd like to take a moment to 
introduce myself to the Committee, and to say a few words about how I 
see CPB's role and where I think our most important tasks lie.
    First of all, on day twelve of my tenure as President of CPB, I 
must say that I am indeed honored to be at this hearing. As the former 
General Counsel of CPB, I worked with the Public Broadcasting Act on a 
nearly daily basis, and I welcome the opportunity to work toward its 
reauthorization.
    Nearly 40 years ago, recognizing the potential power of broadcast 
technology to serve the public interest, the predecessor to this 
committee was instrumental in creating the public broadcasting system.
    The result is an extraordinary, distinctive, community-based 
partnership embracing public broadcasting, the American people, and 
their elected representatives. This partnership has yielded compelling 
public service programming and services without parallel in the media 
history of this country.
    We are now at a moment that calls for similar foresight, reflection 
and judgment. Broadcasting is undergoing its biggest period of change 
since the arrival of the television. As recently as the early 1990s, 
broadcasting was available on only a handful of channels, satellite 
broadcasting hardly existed, and no one beyond a few research workers 
had even heard of the Internet, let alone thought that it had anything 
to do with television. Today digital cable and satellite channels are 
booming. The Internet has changed the very fabric of our lives and is 
transforming society.
    Along with these dazzling breakthroughs in communication and 
information technologies come some critical policy issues: How do we 
make sure that all Americans have access to these new and increasingly 
essential technologies? How can we ensure that the public interest is 
served in the Information Age?
    Public broadcasting is a structure in which a series of competing, 
sometimes almost contradictory goals are balanced. It is a system that 
receives federally appropriated dollars, yet remains free of government 
control of its content. Equally important, for our purposes today, it 
is a system composed of local broadcasters who have nearly total 
autonomy over their programming, services and finances, yet one that 
must be collectively strong enough to the meet the needs of a national 
audience.
    At the center of that structure is CPB. CPB is a private, non-
profit corporation, outside the government enclave. It is prohibited 
from producing or distributing programming, but responsible for 
facilitating high quality content for the system of stations and the 
American public. CPB may not itself broadcast or own or control 
stations. Instead it acts as an honest broker, administering and 
distributing the appropriations to stations and producers and providing 
the guidance and insight that comes with a system-wide view. It is also 
a heat shield, insulating public broadcasters from government efforts 
to exercise undue influence on editorial freedom. We don't make the 
programs, or broadcast them; we don't do outreach or raise funds. But 
we can help create the conditions in which these things--and so many 
more--can happen.
    Freed from the day-to-day decisions about what program to air, CPB 
can take the long view. We can look at the system as a whole, not 
station by station, spotting problems and identifying possible 
solutions. And when there are unmet needs--for a certain kind of 
programming, or research, or training--we can step in to provide it.
    CPB is guided by the principle of localism--that local stations 
make the best decisions about public broadcasting in their own 
communities. But localism does not mean--and cannot mean--local only. 
CPB's ability to direct resources to system-wide needs ultimately 
offers more benefits to individual stations than they would otherwise 
receive. To paraphrase Abraham Lincoln, CPB does for the community of 
stations what they ``cannot do at all in their separate and individual 
capacities.''
    National programming, for example, is not something set apart from 
the work of stations, but a resource that draws viewers (and ultimately 
members), and that educates, informs, enlightens, and enables them to 
participate more fully in the lives of their communities.
    So CPB is conducting the biggest audience research project in 
public broadcasting history. The results will help producers and 
programmers ground decision-making about primetime public television in 
knowledge about audiences and members--effectively bringing audiences 
into the room when decisions are being made.
    We've also launched America at a Crossroads, an ambitious effort to 
bring new voices and viewpoints into the important national 
conversation about America after September 11. We've received more than 
425 proposals--the most in our history--and 361 of them were from 
first-time applicants.
    This fall, we will launch Maya and Miguel, a program for kids old 
enough to have graduated from Sesame Street, and one that speaks 
(sometimes literally) to Latinos, America's fastest growing minority.
    CPB's view across the whole system informs more than programming. 
Just one example: CPB funded a study of public television finances that 
identified major gifts as an untapped revenue source for stations. 
Again working with the station community, we developed a curriculum 
that every station can use to develop and implement a major giving 
plan. The response has been overwhelming--we expect that more than 120 
licensees will participate in the initiative. With strong support from 
Congress, we have also been able to assist public television stations 
to meet the deadline for digital broadcast, and we are working 
collaboratively on ways to use new technology to enhance station and 
system efficiency.
    The Public Broadcasting Act has proven itself resilient in the face 
of change, and its goals are perhaps more relevant than ever in these 
days of media consolidation and frenetic commercialism. While we agree 
with the motivations behind the suggested changes to the Act, CPB 
believes that most of these goals can be accomplished within the 
current framework of the statute as it exists today. We look forward to 
continuing the dialogue with the Committee, with the goal of making 
public broadcasting available and accessible to all Americans.
    Again, I thank this committee for its major role in the creation 
and nurturing of public broadcasting, and look forward to continuing to 
work with you. I will be happy to take your questions.
                                Appendix
    In my first appearance before the Committee, and the first time in 
several years that the Committee has considered a reauthorization of 
CPB, I wanted to provide a primer on how CPB fulfills the charter 
contained in the Public Broadcasting Act and carries out its 
responsibilities by encouraging high-quality programming, making grants 
to local public radio and television stations, and working to 
strengthen the public telecommunications system.
The Corporation for Public Broadcasting
    In 1967, Congress created the Corporation for Public Broadcasting, 
declaring, ``It is in the public interest to encourage the growth and 
development of public radio and television broadcasting, including the 
use of such media for instructional, educational and cultural 
purposes.'' For more than 30 years, the Federal investment in public 
broadcasting has offered all Americans access to the highest-quality, 
non-commercial, educational and cultural programming delivered to their 
homes, schools and workplaces by means of the most current technology. 
With more than 1,000 locally controlled public radio and television 
stations, public broadcasting forms the largest community-based 
educational and civic institution in the Nation.
    CPB is the steward of the Federal investment in public 
broadcasting. It administers several grant programs, through which most 
of the federally allocated funds are sent directly to individual public 
radio and television stations. But in addition to aiding individual 
stations, CPB also is responsible for ensuring the strength of the 
overall system--for example, by funding an interconnection system that 
allows programming to be distributed and by paying some system-wide 
costs, like music royalties. Beyond that, CPB is uniquely positioned to 
assess the health and needs of the system as a whole, and to direct 
funds to the areas of greatest need.
    In 2002, concerned about the financial status of the public 
television station, CPB retained McKinsey and Company to conduct a 
system-wide review. The findings were disturbing. Every source of 
funding for public television--individual donations, gifts from 
foundations, corporate support, and federal, state and local government 
appropriations--were static or declining. McKinsey also identified key 
areas that presented opportunities for either increasing station 
revenues or decreasing costs. In response, CPB launched projects on 
major giving, operational improvements, and programming strategy--and 
then, in response to requests from the stations themselves--added local 
services to the list. All of these projects are well underway, and we 
anticipate a similar examination of public radio issues in the near 
future.
    This kind of system-wide approach offers benefits to local 
broadcasters that go beyond efficiencies of scale. It frees them to 
focus on the pressing needs of their own stations, while drawing on the 
research and opportunities provided by CPB. CPB provides a vital 
service by offering fact-based research on a range of issues, from 
finances to programming, and by funding initiatives that individual 
stations cannot.
How the Public Broadcasting System Operates
    In contrast to commercial broadcasting, which is increasingly 
centralized, the public broadcasting system is very decentralized. 
Every public broadcasting outlet is under local control or ownership; 
increasingly, they are the only locally owned and operated media 
outlets in their communities. With local governing boards, community 
advisors, volunteers, and partnerships with local organizations, 
stations work to provide programs and services responsive to the needs 
of their communities. Each local station maintains sole authority and 
responsibility for selecting, presenting or producing the programs that 
it airs. Congress placed control of programming with local stations 
rather than CPB. It ensured this autonomy by prohibiting CPB from 
owning or operating any television or radio station, system or network, 
and barring it from producing, scheduling or disseminating programs to 
the public.
    Instead, CPB operates within congressionally prescribed guidelines 
to provide financial support and services to 560 licensees operating 
more than 1,000 television and radio stations that deliver educational 
services and programming to virtually every household in the country. 
Congress has mandated that a majority of CPB's appropriation be 
allocated for direct station support. Our obligation to Congress and 
the American people is to ensure that this money is being spent wisely 
and efficiently. Our obligation to stations is to insulate them from 
the political process, and to ensure that their receipt of Federal 
support in no way interferes with their ability to operate as free and 
independent broadcasters, as prescribed by law.
    In addition to our financial support of stations, CPB complies with 
the statutory requirement of providing funds to producing entities and 
independent producers to help them develop a wide range of programming 
that is then made available to local stations. As encouraged by 
Congress, CPB provides direct program support to PBS through 
contractual negotiations for a high-profile national program service, 
which includes series such as Nova, American Experience, Sesame Street 
and NewsHour with Jim Lehrer. CPB does not provide direct program 
support to NPR, which competes with other producers for CPB radio 
program funds on a program-by-program basis. CPB also provides 
programming dollars to entities such as the Independent Television 
Service (ITVS), five separate entities collectively known as the 
National Minority Consortia, and many independent producers and 
producing organizations, all of which are entirely independent of CPB. 
This enables stations to acquire programming independently from a wide 
variety of sources.
    Public television stations choose their programs from the following 
sources, among others:

  <bullet> PBS, which provides more than 1200 hours a year of 
        children's, prime time, and other educational programming from 
        which its member stations can choose.

  <bullet> APT, which acquires programs that may be purchased by 
        stations on a title-by-title basis. These include series and 
        specials such as Nightly Business Report and Julia & Jacques: 
        Cooking at Home. APT also maintains the largest source of free 
        programming available to U.S. public television stations.

  <bullet> ITVS, which funds, distributes and promotes independently 
        produced television programs. ITVS films have been nominated 
        for Academy Awards for the last three years in a row, and for 
        four primetime Emmys this year alone.

  <bullet> The National Educational Telecommunications Association 
        (NETA), which annually distributes about 2,000 hours of 
        programming--produced by public television stations, other 
        entities and independent producers--via satellite to stations 
        nationwide.

    Public radio stations also get their programming from a wide 
variety of sources:

  <bullet> Local productions typically account for about half of 
        programming. In the Washington, D.C. area, for example, WAMU's 
        The Diane Rehm Show and Stained Glass Bluegrass, to name just 
        two programs, are locally produced, as is much of WETA's 
        classical music programming.

  <bullet> 36 percent is from NPR, including news and information 
        programs like Morning Edition, All Things Considered, and The 
        Tavis Smiley Show, cultural programming like Jazz from Lincoln 
        Center and The Thistle and the Shamrock, and entertainment 
        programming like Car Talk and Wait, Wait. . .Don't Tell Me!

  <bullet> 10 percent is obtained from PRI, which distributes programs 
        like Marketplace and and operates a Capitol Hill news bureau 
        that offers a local eye on national events.

  <bullet> 5 percent is from other producers, including other public 
        radio stations. For example, The Diane Rehm Show, produced at 
        WAMU, is heard on stations around the country.
How CPB Distributes its Appropriation
    CPB distributes its funds based on a formula set forth in the 
Communications Act of 1934, as amended (47 U.S.C. 396(k)(3)):

  <bullet> At least 6 percent of its appropriation for certain 
        statutorily enumerated expenses for the system of stations 
        (i.e., music royalties, interconnection expenses, ITVS and 
        minority consortia operational expenses, etc.)

  <bullet> Not more than 5 percent for administrative expenses

    The remaining 89 percent is allocated to stations as follows:

  <bullet> 75 percent for public television

    <ctr-circle> 75 percent of which is for grants to television 
            stations

    <ctr-circle> 25 percent of which is for television programming

  <bullet> 25 percent for public radio

    <ctr-circle> 70 percent of which is for radio station grants

    <ctr-circle> 23 percent of which is for radio program acquisition 
            grants

    <ctr-circle> 7 percent of which is for radio programming

    A schematic diagram of the flow of the funds is as follows:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Grants To Stations
    The statute directs CPB to provide a grant to each station in 
accordance with eligibility criteria and on the basis of a formula 
designed to (1) provide for the financial needs and requirements of 
stations in relation to the communities and audiences such stations 
undertake to serve; (2) maintain existing, and stimulate new, sources 
of non-federal financial support for stations by providing incentives 
for increases in such support; and (3) assure that each eligible 
licensee and permittee of a public station receives a basic grant (47 
U.S.C.A. 396(k)(6)(B)).
    Local television and radio stations are the bedrock of the public 
broadcasting system. They are community institutions working in 
partnership with schools, libraries, and other community organizations 
to provide news and information, children's, local public affairs, and 
cultural programming for their viewers and listeners. There are many 
types of stations--state networks that provide service across an entire 
state and receive significant support from their state government; tiny 
rural stations that offer the only local news in a town or a region; 
major city stations that produce national programs; joint licensees 
that operate both public television and radio stations; and stations 
owned by universities or school systems. Each of these stations is 
governed by its own board of directors, provides its own brand of 
program options, and faces its own challenges in meeting its financial 
obligations. CPB's grant structure, while complex, represents our best 
efforts to respond to the multiplicity of needs facing public 
broadcasters.
Public Television Stations
Television Community Service Grants
    Almost 50 percent of the money CPB receives is set aside for direct 
grants to public television stations, known as television community 
service grants or CSGs. A full-power station operating under a 
noncommercial, educational Federal Communications Commission (FCC) 
license qualifies for a CSG if it meets minimum requirements including 
a minimum level of non-federal financial support, a minimum broadcast 
schedule, and bookkeeping and programming standards.
    The CSG is divided into two parts. The first part is the base 
grant, a percentage of the Federal appropriation. In FY 2004, the base 
grant is $418,000. Designated overlap stations (that is, stations that 
share a market) share a single base grant for that market. The second 
part is an incentive grant designed to reward a station according to 
the amount of non-federal financial support it raises. Every CSG 
qualifying station receives the incentive part of the grant, which 
encourages the development of non-federal revenue, as prescribed by the 
statute.
    As required by statute, stations use CSGs for purposes ``primarily 
related to the production or acquisition of programming.'' Grant 
amounts vary widely from station to station, based on the amount of 
non-federal support that each station raises. CPB monitors grant 
spending through a combination of routine reporting requirements and 
direct audits conducted by CPB's Office of the Inspector General.
    In addition to the CSGs, CPB now provides two other types of grants 
to television stations--the local service grant and the distant service 
grant. These grants are based on formulas arrived at after extensive 
consultation throughout the system--with representatives of APTS and 
PBS, but primarily with station general managers who appreciate the 
sharply different needs of stations throughout the system. The formulas 
that they developed are complex, but strike an extraordinary balance 
between providing support to all and offering special help to those who 
need it. In this, they reflect the statute's policy goals by working to 
maintain universal service. This translates into making extra help 
available to stations providing services to small and rural 
communities; encouraging support from local private and public sources; 
and encouraging efficiency.
    Local Service Grants. CPB recognizes the special needs and 
challenges of small stations and the important role they play in 
providing universal access to free, over-the-air local public 
television. For that reason, CPB provides additional incentives to 
stations with less than $2 million in non-federal financial support. 
The grants are intended to strengthen local services such as outreach 
initiatives, educational projects and services, operational 
efficiencies, implementation of best practices, financial planning, and 
professional development.
    Distant Service Grants. To recognize the additional costs of 
serving multiple communities and the efficiency of multiple transmitter 
operations, and to further the goal of universal service, CPB provides 
larger grants to single grantees who operate three or more transmitters 
(stations). The grants are used to strengthen services, including 
outreach, educational workshops and training, and local content, in 
these communities
Public Radio Stations
Radio Community Service Grants (CSGs)
    Under the statute, CPB provides 15.6 percent of its total 
appropriation to 384 grantees who operate approximately 700 public 
radio stations that qualify for radio CSG funding. The grants are 
designed to address the disparate needs of urban and rural stations. 
These stations provide outstanding, award-winning news and information, 
arts and entertainment programming, as well as valuable community 
services. Sometimes they represent the only local broadcast signal--
commercial or noncommercial--that a rural community receives. CPB also 
offers special funding incentives for nearly 60 minority grantees and 
more than 100 grantees operating in rural environments.
    A licensee or permittee of a radio station operating under a 
noncommercial, educational FCC license is eligible to receive a CSG if 
it satisfies certain minimal requirements relating to power, staff 
size, on-air time, financial viability, access to non-Federal financial 
support, record keeping, and programming. Higher grant amounts are 
available to public radio stations meeting a minimum standard of public 
service as measured either by the average quarter-hour listening 
audience, or by the level of local fund-raising support.
Grants for Programming
    CPB is prohibited by law from producing or distributing 
programming. However, CPB actively encourages promising TV and radio 
projects, supports independent producers, and helps fund productions by 
and about minorities. CPB provides funding to the Public Broadcasting 
System (PBS) to support the National Program Service, and CPB's Radio 
Competitive Funds are the major source of funding for new national 
radio programs.
Television Programming
    CPB provides an annual grant to support the National Program 
Service (NPS), the package of television programming that is fed by 
satellite to PBS member stations in return for their dues payments. 
This includes signature series like NewsHour with Jim Lehrer and PBS 
Kids children's programming, as well as the Sunday-through-Friday prime 
time schedule. In FY 2004, CPB is providing $22.5 million for the NPS. 
These funds, which CPB does not administer, support scores of 
individual programs and provide continuing support for some of public 
television's signature series.
    In addition, CPB matches the stations' contribution to the PBS/CPB 
Program Challenge Fund, which is intended to stimulate the development 
of high-impact, innovative television series such as Colonial House, 
The Blues series and Ken Burns' American Stories..
    CPB also administers a General Program Fund, used to fund 
educational projects and television programming. It supports a number 
of proposals on selected topics of national interest that meet the 
highest standards of excellence. Past projects include Masterpiece 
Theater's American Collection, ``Accordion Dreams,'' and the Memorial 
Day and July 4th Concerts. High priority is given to programming that 
illustrates America's rich cultural heritage and ethnic diversity.
    CPB also provides administrative and programming funds to five 
multicultural groups known collectively as the National Minority 
Programming Consortia (National Asian American Telecommunications 
Association; Native American Public Telecommunications, Inc.; National 
Black Programming Consortium; Pacific Islanders in Communications; and 
Latino Public Broadcasting). These groups distribute funds to producers 
for the development of programs of diverse content.
    In FY 2001, CPB established the Diversity Fund to encourage public 
television projects that help people think about the complexity and 
beauty of America's contemporary multi-cultural society. Two projects 
supported by the Diversity Fund will air on PBS this fall. During 
Hispanic Heritage Month, PBS will air Visiones, a series by acclaimed 
director Hector Galan that will look at the history of Latino Arts and 
Culture in America. Later this year, PBS will air The Appalachians, a 
multi-part series looking at the history and legacy of the Appalachian 
people, and including an interview with Senator Robert Byrd. A 
companion book and CD will be hosted by Naomi Judd.
    As directed by Congress, CPB also provides annual programming 
support to ITVS, which in turn, provides production grants to 
independent producers developing projects intended for public 
broadcasting. This support helps CPB meet its statutory requirement 
that it provide ``adequate funds for an independent production 
service.'' ITVS's work is of high quality--one program, ``Flag Wars,'' 
won a Peabody Award this year, and ``Be Good, Smile Pretty'' has been 
nominated for a national Emmy award--and ensures that public television 
benefits from the strong voices of independent producers whose stories 
resonate particularly with underrepresented and underserved audiences.
Radio Programming
    Since 1987, CPB has directly supported the production of radio 
programs intended for national audiences. Throughout its history, CPB 
has awarded about three of every four radio programming grants to 
national projects by or about ethnic groups and to projects by 
independent producers. All CPB-funded radio programs are made available 
nationally to all public radio stations. CPB continues to give highest 
consideration to excellent, balanced, and innovative programming from 
diverse sources.
    In addition, all Community Service Grant recipients are required to 
use approximately 30 percent of this grant for the purpose of 
purchasing or producing programming of national interest. These grants 
ensure the availability of some of the best programming public radio 
has to offer by targeting use of the funds to the purchase or 
production of national programming.
System Support Funds
    By law, CPB spends at least 6 percent of the funds it receives to 
support the public broadcasting system, as opposed to individual 
stations or producers. CPB often supplements this amount with funds 
from its administrative allocation.
    System support expenditures include:

  <bullet> Interconnection grants. These are provided to public 
        television stations specifically to purchase or maintain 
        equipment allowing each local station to receive or deliver 
        signals via satellite. By law, half of the interconnection 
        costs for television are funded with system support funds 
        through these grants.

  <bullet> Music royalty fees for broadcast and Internet use for all 
        CPB-funded public television and radio stations, as well as for 
        NPR and PBS.

  <bullet> Operational costs for ITVS and Minority Consortia.

  <bullet> Promoting workforce diversity and career development for 
        minority producers.

  <bullet> Financing public broadcasting award programs, strategic 
        planning, and research into new technologies.
CPB Administrative Operations
    In 1988, Congress set CPB's administrative budget at a fixed level 
with annual increases to be based on the Consumer Price Index or 4 
percent--whichever is higher. In no instance may the administrative 
costs exceed 5 percent of the total appropriation.
CPB's Oversight Obligation
Compliance with Funding Requirements
    The Public Broadcasting Act of 1967, as amended, and Federal 
appropriations place responsibilities on CPB for the distribution, use 
and reporting of appropriated funds. This responsibility extends to 
entities receiving CPB funds. External oversight to monitor their 
compliance with CPB funding criteria is a primary responsibility of the 
Corporation. In addition to its own grant administration policies, CPB 
is aided in this regard by its Board of Directors and its Office of 
Inspector General.
CPB Board of Directors
    The CPB Board of Directors is comprised of nine members, appointed 
by the President and confirmed by the Senate. While the entire Board is 
charged with oversight, the CPB Audit Committee is the initial vehicle 
that the Board of Directors uses to discharge its oversight 
responsibilities under the laws and regulations governing the 
Corporation. Principal among these is compliance with the Public 
Broadcasting Act of 1967, as amended, and oversight of funds 
appropriated annually to public broadcasting. These responsibilities 
extend to oversight of corporate programs, functions and activities 
established to manage and control the Corporation's utilization of 
funds.
Office of Inspector General
    In 1989, the CPB's independent Office of Inspector General was 
created for the purpose of improving efficiency, economy and 
effectiveness of CPB operations and programs, and preventing and 
detecting possible waste, fraud and abuse. The CPB Board Audit 
Committee and CPB Management work with the OIG to establish a programs 
for review of the adequacy of systems of financial management and 
internal controls to ensure accurate and complete reporting, compliance 
with applicable rules and regulations, and safeguards over CPB 
resources. This includes requiring stations to submit to audits and 
keep their books in compliance with CPB policies (47 U.S.C. 
Sec. 396(l)(3)).
Compliance with Content Oversight Obligations
    Sections 396(g)(1)(a) and 396(g)(1)(d) of the Act state, ``(1) In 
order to achieve the objectives and to carry out the purposes of this 
subpart, as set out in subsection (a) of this section, the Corporation 
is authorized to:

        (a) facilitate the full development of public 
        telecommunications in which programs of high quality, 
        diversity, creativity, excellence, and innovation, which are 
        obtained from diverse sources, will be made available to public 
        telecommunications entities, with strict adherence to 
        objectivity and balance in all programs or series of programs 
        of a controversial nature . . . [and]

        (d) carry out its purposes and functions and engage in its 
        activities in ways that will most effectively assure the 
        maximum freedom of the public telecommunications entities and 
        systems from interference with, or control of, program content 
        or other activities.''

    Our current activities designed to meet these statutory 
requirements fall into four general categories:
    Soliciting Public Comment. In 1993, the CPB Board and management 
established the Open to the Public initiative in order to encourage 
viewers and listeners to voice their opinions through:

  <bullet> A toll-free, 24-hour telephone line (1-800-272-2190)

  <bullet> A U.S. post office box (P.O. Box 50880, Washington D.C. 
        20091)

  <bullet> A dedicated e-mail address (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cbc7c5c5cdc6dcdbe8cbd8ca86c7dacf">[email&#160;protected]</a>)

    Virtually all public radio and television stations maintain similar 
audience response services, as do the national organizations, such as 
PBS, NPR, and PRI, as well as many other program producers and 
providers. CPB provides links to these organizations through its 
website. Earlier in this testimony, I discussed our plans to strengthen 
our Open to the Public initiative.
    Monitoring Public Perceptions. In addition to public comment, CPB 
considers other impartial indicators, including journalism awards, 
independent polling data and press reports, to help gauge perceptions 
of quality, as well as objectivity and balance. PBS and NPR also 
conduct regular independent surveys and focus group opinion studies, 
which we review and sometimes participate in.
    Addressing Concerns. CPB staff meet frequently with producers and 
station representatives to learn more about projects in development, 
plans for community dialogue, and special outreach efforts to ensure a 
variety of perspectives. When controversial programming generates 
public interest, CPB routinely communicates such comments to the 
appropriate producer or programmer and seeks further information or 
clarification.
    CPB Program Funding. It has been CPB's long-standing policy to 
support a wide variety of programming sources and distribution 
channels, so that local programmers--and viewers and listeners--have a 
wide number of program choices. Programming content for stations, 
therefore, comes from PBS, NPR, PRI, APT, many independent sources, and 
from local sources, including the station. Each local station 
ultimately decides which programs to carry and when to carry them, and 
decisions about controversial programs are vested, by law, in 
individual stations.
    Program proposals are evaluated on the basis of comparative merit 
by CPB staff and panels of outside experts, representing diverse 
interests and perspectives. Balance and objectivity are important 
criteria for program proposals concerning topics of a controversial 
nature. Any resulting CPB program contract requires that a recipient's 
production meet all applicable standards of journalistic ethics, 
including issues related to fairness.
    Since its creation by Congress in 1967, CPB has worked diligently 
to fulfill its mission of promoting a dynamic, independent and trusted 
public broadcasting system. I believe that CPB has and continues to 
meet its obligation to help provide the American public with a range 
and quality of programming and services unrivaled by any other 
broadcast service.
    I hope that this information is of use to the Committee. Please let 
me know if there is other information that I can provide to assist the 
Committee as it works towards a reauthorization of CPB.

    The Chairman. Thank you.
    Mr. Matthusen, welcome.

STATEMENT OF CARL MATTHUSEN, GENERAL MANAGER, KJZZ-FM, KBAQ-FM, 
             AND SUN SOUNDS RADIO READING SERVICES

    Mr. Matthusen. Thank you.
    Chairman McCain, Members of the Committee, I'm the General 
Manager of three public radio operations in Arizona. They 
include KJZZ-FM, ``K-Jazz,'' KBAQ-FM, ``K-Bock,'' and Sun 
Sounds Radio Reading Service. My background also includes 6 
years spent on the board of directors of National Public Radio, 
starting in 1990, with four of those years spent as chairman of 
the board. Thank you for this opportunity to provide a station 
point of view on behalf of NPR and its member stations as you 
contemplate legislation to reauthorize CPB.
    My stations represent much of the diversity that exists in 
public radio. KJZZ features news, information, entertainment, 
and acoustic jazz. It's one of the older and larger station in 
the system. KJZZ's sister station, KBAQ, provides Central 
Arizona's only classical music programming. It is one of the 
newer and smaller stations in the system. Sun Sounds is a radio 
reading service. It and the other reading services around the 
country seek to provide time-critical information, primarily 
newspapers and magazines, to an audience of blind or otherwise 
print-disabled listeners.
    KJZZ and KBAQ are members of National Public Radio, as are 
some 770 other stations across the country. Combined, my 
stations reach about 400,000 listeners a week. The nation 
audience for public radio now numbers some 30 million Americans 
weekly.
    While there are a number of challenges confronting public 
radio today, I'd like to draw your attention to one in 
particular; that would be the analog-to-digital transition. To 
date, more than 150 stations have applied for and received 
transition funds through the first two rounds of CPB grant 
assistance. A third round of funding assistance has just been 
released by CPB. By the end of calendar year 2004, we 
anticipate that 200 to 250 radio stations will be well down the 
road of this important technology transition.
    In October 2002, the Federal Communications Commission 
endorsed a technology for radio stations that began the 
conversion from analog to digital. The Commission's landmark 
decision has opened a transition path that public radio 
stations must follow. This technology opens the door to new 
expanded service for public radio that is revolutionary in both 
improving sound quality and in creating a means of affordable 
programming expansion.
    Just weeks after the FCC's 2002 decision, NPR announced the 
Tomorrow Radio Project, with partners in the private sector 
known for their expertise in transmission and radio receiver 
knowhow. The principal goal of NPR's Tomorrow Radio effort was 
to test multichannel or multicasting technology that could 
allow public radio stations to broadcast more programming and 
more content, but using existing spectrum. Quite simply, this 
means that we can utilize the properties of digital broadcast 
technology to carry two or more streams of programming on the 
same channel or frequency. The Tomorrow Radio format, which may 
be approved this year by the FCC, will permit program expansion 
for a fraction of the cost of acquiring frequencies through 
traditional methods.
    Mr. Chairman, in reauthorizing CPB, I urge you to include 
language that continues funding for public radio's digital 
transition, as well as for the operational funds so badly 
needed for the public telecommunications facilities program and 
for support of the satellite interconnection system by which 
our programming is distributed.
    Chairman McCain and Members of the Committee, I recognize 
the fiscal challenges that confronts Congress in making funding 
decisions each Fiscal Year. I would suggest that the 
partnership existing between Congress, CPB, and the public 
radio and television stations is extraordinarily effective. For 
every dollar provided to public radio stations through CPB 
grants, the stations raise an additional eight dollars. 
Everything we do is nurtured, directly or indirectly, by the 
funding that you have provided.
    NPR and its member stations operate today not only because 
of Federal support, but also because we have worked to secure 
the loyalty, trust, and support of listeners, local businesses, 
and foundations. We actually believe it is our responsibility 
and mission to act in the public interest, convenience, and 
necessity.
    I have additional written comments, and request permission 
to submit them as part of the record of this proceeding.
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to be part of your session today.
    [The prepared statement of Mr. Matthusen follows:]

Prepared Statement of Carl Matthusen, General Manager, KJZZ-FM, KBAQ-FM 
                 and Sun Sounds Radio Reading Services
Introduction and Summary
    Chairman McCain, Senator Hollings and Members of the Committee, I 
am Carl Matthusen, General Manager of KJZZ-FM, KBAQ-FM and Sun Sounds 
Radio Reading Service, all serving the citizens of Arizona. I'm 
grateful for this opportunity to support the reauthorization of the 
Corporation for Public Broadcasting. Taking this action is a very 
significant and important step in securing a stable foundation for 
America's public broadcasting institutions. I speak for all in public 
radio in expressing our appreciation for the leadership you've provided 
to public radio and television and to institutions like CPB. This 
leadership and support have been critical in continuing the successful, 
four decades-old partnership between the Congress and public 
broadcasting institutions that serve every state and congressional 
district in America.
    My stations are representative of the diversity and distinctive 
nature that defines public radio today. KJZZ features news, 
information, entertainment, and acoustic jazz. It went on the air in 
1951, and is licensed to the Maricopa County Community College 
District. Arbitron numbers say KJZZ reaches nearly 250,000 listeners 
weekly. The annual budget is $3.1 million. 10 percent of that comes 
from the Community Service Grant program of the Corporation for Public 
Broadcasting.
    KJZZ's sister station, KBAQ, provides central Arizona's only 
classical music programming. The Maricopa Community Colleges and 
Arizona State University jointly own KBAQ, which is 11 years old and 
has a current annual budget of $1.4 million. 17.8 percent of the KBAQ 
budget comes through CPB. The KBAQ audience is about 150,000 listeners 
weekly.
    Sun Sounds is a radio reading service for the blind and print 
disabled. It is 25 years old this year. It, and the other readings 
services around the country, seeks to provide time-critical 
information, primarily newspapers and magazines, to a disabled 
audience. We estimate this audience numbers about 32,000 in Arizona. 
Sun Sounds does not receive any support from CPB, although CPB does 
support the distribution of some programming nationally.
    KJZZ, KBAQ, and Sun Sounds, like all the other public radio 
stations in America, are locally owned, locally licensed, locally 
staffed and locally programmed. KJZZ and KBAQ are members of National 
Public Radio, as are some 770 other stations all across America. Today, 
NPR programming heard on these stations reaches a weekly audience of 
some 22 million Americans. Public radio stations are located in every 
one of America's fifty states, as well as the District of Columbia, 
Puerto Rico, Guam and the Marianas Pacific, to bring programming that 
meets the highest standards of public service in journalism and 
cultural expression.
    While NPR is not the only producer and/or distributor of public 
radio programming, it is preeminent among all others. Because of this, 
my remarks speak to both NPR and public radio stations. As you know, 
NPR is a nonprofit membership corporation that produces and distributes 
noncommercial educational programming, including All Things 
Considered, Morning Edition, Talk of the Nation, and Performance 
Today, for broadcast by more than 770 public radio stations 
nationwide. NPR's members, comprising a variety of community licensees, 
school boards and other local institutions, Native American tribes, and 
private and public colleges and universities, are themselves 
significant producers of news, informational and cultural programming. 
NPR also operates the Public Radio Satellite Interconnection System and 
provides representation and other services to its Member stations.
    NPR doesn't own or operate radio stations. Public radio stations 
are locally licensed, locally governed, locally programmed, and locally 
staffed. Institutionally and practically, these very direct and 
significant local affiliations have accomplished their intended 
purpose: public radio stations are responsive and responsible to the 
communities and listeners they serve. Whether a public radio station's 
broadcast license is held by a community college, like KJZZ's, or by 
state authorities, such as either the Mississippi Public Radio Network 
or the South Carolina Educational Radio Network, or by a community 
entity such as Nevada Public Radio, public radio stations provide 
localized services that meet local and regional needs.
    I'd like to suggest four basic notions for inclusion in legislation 
to reauthorize CPB, all of which will strengthen the distinctive 
partnership between the Congress and public broadcasting institutions 
that has been the hallmark of our history:

  1.  Funding authorization levels for CPB need to reflect the growth 
        in audience, the distinctive service and importance of public 
        broadcasting entities in America's communities, and the 
        challenges faced by local stations in responding to reductions 
        in state and local financing sources.

  2.  The transition to digital broadcasting technology, both in radio 
        and television, is critical to the future success of public 
        broadcasting. Legislation reauthorizing CPB needs to reflect 
        this by containing specific funding authority and funding 
        levels to help complete the transition.

  3.  Renewal of funding authority for the Public Telecommunications 
        Facilities Program (PTFP) within the U.S. Department of 
        Commerce is of great import to the future of public 
        broadcasting entities. PTFP is an integral part of the 
        construction of facilities to bring educational and cultural 
        programming to the American public.

  4.  Public radio and public television stations rely heavily on 
        satellite interconnection systems, which are indispensable to 
        our current and future abilities to serve the American public. 
        CPB's reauthorization must contain funding levels sufficient to 
        provide these vital services.
Public Radio Programming
    Programming heard on America's public radio stations meets the 
highest standards of public service in journalism and cultural 
expression. Each station designs it own format by combining local 
programming with offerings from NPR, Public Radio International, and 
other sources to best serve its particular audience.
    Travel across America and you'll hear public radio's unique blend 
of programming that combines daily coverage of events with in-depth 
excursions into local, national and international stories.
    In addition, public radio reaches an international audience through 
NPR Worldwide, which brings all of our most popular shows to American 
military forces via the American Forces Network in the Middle East, 
Europe, Japan and Korea. This is an important audience for public radio 
and it's an audience we value. Numerous letters from American soldiers 
posted overseas expressing sentiments like this have been received:

        ``Hello NPR . . . an Army Reservist recalled to active duty and 
        sent to Bagram Air Base in Afghanistan this past May. I just 
        wanted to drop a line to let you know I listen to NPR Worldwide 
        on 105.7 FM.

        I found the station while channel surfing on a car radio the 
        other day, and upon hearing Click and Clack's familiar voices 
        became quite pleased that NPR reaches this far from my home in 
        Virginia. . . . I shared my find with a fellow officer and NPR 
        listener, and we are now both confident that listening to NPR 
        will make our stay in Bagram a bit more bearable. Thank you for 
        making this service available so far away from home.''

    And this from a Chaplain:

        ``I served as Chaplain to an engineer Battalion until December 
        of last year. In February, the unit was deployed and is now in 
        Iraq. Today I received an e-mail from the commander. . 
        ..sharing some of the life and times in that country. He noted 
        in particular that the English TV is very limited, so he 
        listens to NPR. It was a comfort to me to know that our troops 
        have contact to the world via NPR. There are some 450 soldiers 
        with him, most from Arkansas. A member of A company was killed 
        recently and the pain of his loss still lingers. If nothing 
        else, I just want to say thank you for reaching around the 
        world, with the world, so that our soldiers have a taste of 
        home while in the desert''.

    Mr. Chairman, distribution of NPR Worldwide programming is 
supported financially by NPR as part of its annual operating budget. 
Its current relationship with the American Forces Radio and Television 
Network began more than 2 decades ago and continues today as an 
important component of its day-to-day mission.
News and Information
    The foundation of public radio is service to America's communities. 
That commitment to service is best illustrated by the extensive news 
and information reporting that is found daily on public radio stations. 
While other media entities have downsized newsgathering and reporting 
over the past several years, many in the public radio community have 
added reporters, correspondents and offices worldwide. For example, in 
June, 2004 NPR announced a major expansion of its news operation with 
plans to invest $15 million over the next three years to add reporters, 
editors, producers and managers, and to add new foreign and national 
bureaus. This unprecedented investment and expansion is demonstrative 
of public radio's commitment to bring in-depth and top-quality 
reporting and programming to our growing audience. Public radio 
audiences hear the results and benefit from this dynamic expansion when 
correspondents stationed across the Nation and throughout the globe are 
able to bring them growing numbers of voices and perspectives. 
Internationally, NPR supports 4 NPR News bureaus and 10 offices. Today, 
international news comprises more than one-third of NPR News. The 
conflict in Iraq, for example, has kept a dozen NPR reporters and 
producers rotating through Baghdad.
    Public radio station reporters are frequent and regular 
contributors to NPR programming. Mark Moran, of my own station, KJZZ, 
reports routinely on events impacting Arizona and America's southwest. 
Eric Niiler, of KPBS in San Diego, was imbedded with U.S. troops in 
Iraq and filed very important stories found nowhere else on the radio 
dial. Literally dozens of stories each month, carried nationally, 
originate from local reporters who are on staff at public radio 
stations.
    Inseparable from public radio's commitment of service to America's 
communities is our commitment to the presentation of fair, accurate and 
comprehensive information. As a former Board Chair for NPR, I know that 
it is pledged to abide scrupulously by the highest journalistic, 
editorial and artistic standards and practices of broadcast 
programming. It is committed to providing diverse and balanced 
viewpoints through the entirety of its programming. As a news 
organization, NPR recognizes its coverage must withstand the same 
rigorous probing, testing and questioning it applies to the events it 
covers. While the following are unique to NPR, several of its policy 
initiatives are worth mentioning and are illustrative of practices 
employed throughout public radio.
    First, NPR is the only broadcast organization in the United States 
that has an ombudsman. Established in February 2000, the role of the 
NPR Ombudsman is to serve as an advocate for NPR listeners; to ensure 
that the highest standards of journalism are constantly maintained at 
NPR; to receive, investigate and respond to queries regarding editorial 
standards in programming; and, to serve as an independent source of 
information, explanation, amplification and analysis for the public 
regarding NPR's programming and NPR's adherence to its programming 
standards and practices. The ombudsman is completely independent of NPR 
staff and management, reports directly to the President and, through 
the President, to NPR's Board of Directors.
    Secondly, NPR News is guided by a Code of Ethics and Practices as a 
way of protecting the credibility of its programming by ensuring the 
highest standards of honesty, integrity, impartiality and conduct of 
staff. This code, recently updated by NPR's Vice President of News, 
covers all NPR journalists, defined as employees who report (including 
hosts and newscasters), edit or produce news programming. It also 
covers all senior News managers and applies to all platforms for NPR 
News content, including NPR Online.
    The code articulates the ethical standards NPR observes in the 
pursuit and presentation of stories; it sets rules and policies to 
prevent conflicts of interest; it establishes guidelines for outside 
work and activities that may reflect on NPR; and it establishes 
policies and procedures to ensure that the activities of NPR that fall 
outside journalism--corporate underwriting, foundation funding, 
marketing and promotional activities--do not jeopardize NPR's 
journalistic independence or involve NPR reporters, editors, hosts or 
producers in activities inappropriate to their role as journalists.
    Thirdly, NPR News adheres to guidelines on commentary that are part 
of NPR's weekday air. All commentaries airing on NPR must meet certain 
standards, including:

  <bullet> Rigorous fact-checking to ensure accuracy. If a commentary 
        is aired with errors of fact, an on-air correction will occur.

  <bullet> Pairing commentaries aired on controversial subjects with 
        other points of view on that subject in a timely way. NPR lets 
        the listener know this will happen and takes steps to ensure 
        that it does.

  <bullet> Underscore for listeners why commentators are appropriate to 
        the subjects they discuss.

  <bullet> Assuring that all in the News management staff, including 
        the Vice President for News and Information, share 
        responsibility for commentary content.

    Mr. Chairman, NPR and public radio have long been leaders in 
establishing standards for confronting the ethical issues of the daily 
practice of journalism. Just recently, Al Stavitsky, Associate Dean of 
Journalism at the University of Oregon, and Jeffrey Dvorkin, Ombudsman 
for National Public Radio, have completed an ethics guide. With 
financial help from CPB, Messrs. Stavitsky's and Dvorkin's work, 
Independence and Integrity II: An Updated Ethics Guide for Public Radio 
Journalism, has been published. As Mr. Dvorkin describes it, the guide 
``. . . deals with some of the most important ethical issues that 
confront public radio journalism on a daily basis--questions about how 
to deal with and evaluate sources, correcting errors, reporting vs. 
punditry, relations with public radio underwriters and funders. . . .''
    The publication of this document allows and encourages those of us 
at the station level to further refine the efforts of our local news 
departments. It reaches us at an opportune and important time for 
public radio and for journalism generally. Scandals and embarrassments 
at some of America's well-regarded news outlets have prompted a new 
wave of skepticism from the public. While public radio has not been 
part of these episodes, the Updated Ethics Guide is an important tool 
for all in public radio.
Public Radio's Audience
    The audience listening to public radio station programming reflects 
the distinctive, catalytic partnership that exists between local public 
radio stations serving local audiences across the country and national 
programming entities like NPR, Public Radio International, and other 
producers of public radio programming. Roughly one in ten Americans 
tunes to an NPR station in a given week and more than one in every four 
college-educated adults listens to NPR stations. This is an audience 
reach that exceeds the combined readership of the Nation's top 46 
newspapers and the respective weekly readership of Newsweek magazine 
and Time magazine.
    While retaining its deep local roots and focus on balanced, 
objective and in-depth programming, public radio has evolved 
dramatically in recent years. For example, in the past four years, 
NPR's audience has grown by more than sixty percent while in the last 
decade its audience has doubled. This growth has occurred in public 
radio while audiences tuning into commercial stations have declined 
over the same period. Public radio stations attract and retain 
listeners because our programming engages them in their daily routines, 
offers insight and perspective on the events that shape communities, 
states, our Nation and the world.
    Our listeners are politically active and involved in their 
communities. Almost one-third of listeners classify themselves as very 
or somewhat conservative; 30 percent feel that they are in the middle 
of the political spectrum; and 29 percent describe themselves as very 
or somewhat liberal. Fully 62 percent of NPR listeners voted in local, 
state and Federal elections, while approximately 94 percent stated that 
they participated in community or political activities in the past 
year.
Financial Profile
    The funding profile of public radio stations has changed 
dramatically in recent years. In 2001, local community support grew to 
53 percent of a station's total revenue, up from 38 percent in 1992. 
Federal financial support, while a vital component of local station 
operations, stands at only 14 percent of total revenue for an average 
station. This is down from 22 percent in 1992. Over the same time 
frame, total station revenue grew from roughly $310 million in 1992 to 
approximately $725 million in 2003. Public radio stations operate today 
because of the Federal financial support your subcommittee and the 
Congress provide, but also because they have won the loyalty, trust and 
support of listeners, local businesses and foundations through 
programming that is compelling and worthy.
    The challenges confronting public radio today--the necessity of 
converting an aging analog broadcasting infrastructure to a digital 
system; technical and cost constraints that limit expansion of public 
radio signals to unserved and underserved areas; improving programming 
service to existing listeners and reaching new audiences; and, 
decreasing financial support from state and local governments--all 
place significant financial stress on the system. Reaching underserved 
areas and audiences while improving existing services is now more 
important than ever, as current events demand an informed and engaged 
public. In this era of commercial media consolidation, public radio is 
unmatched in its ability to deliver in-depth, balanced, objective 
coverage of our cities, country and the world.
    Federal financial support has not kept pace with the growth in 
listeners, a situation that only adds to local station problems. This 
imbalance translates into staff reductions and reduced hours of local 
programming. Capital improvements are postponed, news staff growth is 
delayed and the expansion of initiatives to better serve communities 
simply doesn't occur. To accomplish their public service mission and to 
improve the quality and expand the quantity of daily programming, 
America's public radio stations need the continued financial support 
the Congress provides. As you consider reauthorization of CPB, it may 
be time to bring funding levels in line with the growth in audience.
    Mr. Chairman and Members of the Committee, I recognize the fiscal 
challenges Congress confronts in making funding decisions each fiscal 
year. I would suggest that the partnership existing between Congress, 
CPB, and public radio and television stations is extraordinarily 
effective. For every dollar provided to public radio stations through 
CPB grants, the stations raise an additional eight dollars. Everything 
we do is nurtured, directly or indirectly, by the funding you have 
provided. Viewed another way, Federal support for public radio stations 
amounts to only 30 cents per American.
Public Radio's Digital Transition
    One of the most important, immediate and far-reaching challenges of 
public radio stations is found in the technology used to reach 
listeners. Radio, the most ubiquitous, most accessed content delivery 
medium in the United States remains dependent on an aging analog 
transmission system.
    But change is on the way. In October 2002, the Federal 
Communications Commission endorsed a technology for radio stations to 
use to begin the conversion from analog to digital broadcasting. The 
Commission's landmark decision has opened a transition path that public 
radio stations must follow. This new technology opens the door to 
expanded service for public radio in a way that is revolutionary in 
enhancing service to listeners, in improving sound quality, and in 
creating a means of affordable programming expansion.
    In the United States, public radio, through NPR and its member 
stations, has been at the forefront of digital radio development since 
its inception. WGUC Cincinnati experimented with digital stereo 
transmissions in 1985. WGBH Boston conducted similar experimental 
broadcasts in the evening hours in the late 1980s. By 1987, NPR became 
the first broadcaster to suggest to the Federal Communications 
Commission the need for system development and future frequency 
allocations for digital radio applications in the United States.
    NPR and public radio stations have become recognized leaders in 
this important technology transformation. Just weeks after the FCC's 
2002 decision, NPR announced the Tomorrow Radio project, with partners 
in the private sector renowned for their expertise in transmission and 
radio receiver know-how. The principal goal of NPR's Tomorrow Radio 
effort was to test multichannel or supplemental audio technology that 
could allow public radio stations to broadcast more programming and 
content using their existing spectrum. Quite simply, this means that 
public radio stations can utilize digital broadcast technology to carry 
two or more streams of programming on the same channel, or frequency.
    For public radio stations nationwide, this revolutionary technology 
will permit the broadcast of multiple audio programs for the modest 
price of a new digital broadcast system. Prior to Tomorrow Radio, 
public radio's only alternative for program expansion was the 
acquisition of an entirely new radio frequency, often technically and 
financially not achievable. With budgets already tight, very few public 
radio stations could afford to increase their programming services 
through new signal acquisitions.
    However, the Tomorrow Radio format will permit a program expansion 
for just a fraction of the cost. It is estimated that the total cost of 
converting public radio's 800 full power stations and 800 translator 
and repeater stations is $171.7 million, with the average station 
transition cost estimated to be $130,000. In previous testimony before 
other congressional committees, CPB has communicated that the 
anticipated Federal share of this transition cost is estimated to be 
$77.3 million.
    The driving force behind public radio's digital transition is not 
just the improved audio quality and reduced interference, but the 
expanded public service and programming opportunities. In addition to 
supplemental audio channel capability, digital broadcasting will 
provide on-demand delivery of programming; features that allow 
listeners to interact with stations and to tailor services to their own 
unique needs and interests; expanded weather alerts, continuous traffic 
reports, emergency and Amber alerts; non-English broadcasts; and 
expanded assisted-living services such as reading services for the 
visually impaired and even digitally captioned broadcasts for the 
hearing impaired.
    The FCC has been very encouraging in exploring the use of expanded 
services inherent in digital radio. The four public radio stations that 
formed the test markets for NPR's Tomorrow Radio project were given 
experimental operating licenses by the FCC. Also, Commissioners 
Abernathy, Martin and Copps each spoke of the benefits consumers will 
realize from digital radio, including the development of innovative 
offerings such as multiple audio streams. Digital radio enthusiasts in 
the public radio community have embraced the expectations of 
Commissioners Abernathy, Martin and Copps to fully explore the 
expansion of service provided by this new technology.
    To date, 151 public radio stations have been offered transition 
assistance from CPB and approximately 20 are on the air, including WAMU 
and WETA in the Washington area. CPB has committed some $23.5m to 
support public radio's digital transition and it recently announced 
transition grant guidelines for III of the conversion, which is open to 
all CPB-qualified public radio stations. If station response to this 
grant opportunity is on par with the previous two, I believe more than 
250 public radio stations will be well down the road to digital 
broadcasting by the end of calendar year 2004.
    The FCC released a Further Notice of Proposed Rulemaking on April 
15, with comments due June 15 and reply comments July 15. There was 
overwhelming support by public (and commercial radio stations too) for 
multicasting specifically, and for digital radio generally. We remain 
hopeful that sometime in the fourth quarter of this year, the 
Commission will issue an additional report and order that permits 
multicasting.
Public Radio's Satellite System
    In addition to its role as a content provider, NPR manages and sets 
policy for the public radio satellite system, which encourages and 
facilitates the exchange of programs from all over the world. The 
system is open to all public telecommunications users, including NPR's 
member stations, freelancers, reporters, producers, and program 
syndicators. Each year, thousands of hours of news, music, and 
specialized audience programming are distributed to public radio 
stations throughout the United States via the Public Radio Satellite 
System (PRSS). The PRSS is operated and managed by the Distribution 
Division of National Public Radio, Inc. (NPR).
    Originally built in 1979 with funds provided by Congress through 
CPB, the PRSS currently is undergoing its most significant upgrade 
since its initial construction. This upgrade will take advantage of 
technological innovations to streamline how public radio stations and 
producers select, send, acquire, and automate programming.
    Structure: The PRSS is a distinctive, cooperative enterprise. 
Interconnected stations own their own downlink and uplink equipment. 
The Public Radio Satellite Interconnection System Charitable Trust owns 
the satellite transponder capacity, as well as the national operating 
system equipment located in Washington, D.C. Today, the PRSS includes 
more than 400 downlinks. Many additional stations also receive 
programming sent over the satellite through local connections with 
downlink stations. The System Technical Center (STC) is located at NPR 
headquarters in Washington, DC.
    Finances: The PRSS is entirely self-sufficient in covering its 
annual operating costs. The interconnected public radio stations and 
program providers support the satellite system through the payment of 
fees that reflect their share of the annual costs of operating and 
managing the PRSS. In addition, excess transponder capacity is sold to 
non-public radio users to help offset the costs of operating the 
system. Major infrastructure costs for the PRSS are met by periodic 
Federal appropriations, administered through the Corporation for Public 
Broadcasting.
    Access: The PRSS is open to all public telecommunications entities, 
including independent producers; program syndicators and distributors; 
national, state, and local organizations; and public radio stations. 
Stations who receive programming distributed by the PRSS range from 
those located in remote villages in northern Alaska and on Indian 
reservations in the Southwest, to major market stations such as WNYC in 
New York and KUSC in Los Angeles. Programs distributed over the Public 
Radio Satellite System come from NPR, Public Radio International (PRI), 
Minnesota Public Radio and more than 200 other radio producers and 
organizations. Formats include news, public affairs, drama, 
documentaries, classical music, jazz, and many others.
    In-Kind Services: An important mission of the PRSS is to facilitate 
the cost-effective and efficient distribution of high-quality, 
educational programming to this country's increasingly diverse 
population. As part of that mission, the PRSS provides satellite 
transmission services to distribute programming that targets unserved 
or underserved audiences, from sources who meet certain criteria 
established by the NPR Board, including demonstrated financial need. At 
the present time, the PRSS extends in-kind support to American Indian 
Radio on Satellite (AlROS), a program service based in Lincoln, 
Nebraska, that targets Native American listeners, and to Satellite 
Radio Bilingue, a Spanish language program service managed by Radio 
Bilingue in Fresno, California.
    Training & Outreach: The Distribution/Interconnection Technology 
Training Initiative was created in 2001 to address the growing need for 
more awareness and knowledge in the public radio community about new 
technologies-particularly technologies related to program and content 
distribution. In addition to providing training, the Initiative is 
working to expand the diversity of talent in public radio by promoting 
technical careers in the industry to young people, minorities, and 
others through outreach and education efforts.
    Governance: The NPR Board of Directors governs the PRSS. The 
Distribution/Interconnection Committee (D/I Committee) of the NPR Board 
is charged with proposing rates and policy to the Board and overseeing 
the operation and management of the Public Radio Satellite System. The 
composition of the D/I Committee is unique, consisting of both Board 
and non-Board members. The non-Board members represent the interests of 
non-NPR users of the distribution system, including independent 
producers, other program distributors, non-member stations, and other 
organizations and entities in public radio. The presence of non-Board 
members on the Committee reflects NPR's role as manager of an 
interconnection system that serves all public telecommunications 
entities needing distribution services. The non-Board members of the D/
I Committee are elected by the NPR Board and confirmed by the 
interconnected stations.
    ContentDepot: Public radio's new program distribution system, the 
``ContentDepot,'' will continue to incorporate satellite distribution, 
as this technology continues to provide the most cost-effective and 
reliable means of delivering high quality audio programming to a 
diverse national network of radio stations. But the new system will 
also introduce use of the Internet, web-based interfaces, and enhanced 
station automation control to increase flexibility in the ways stations 
receive and store programs and other information from the PRSS.
    NPR Distribution began laying the foundation for the ContentDepot 
in 2001 by managing a major overhaul of station downlink equipment. 
This project outfitted interconnected stations across the U.S. with 
equipment that enables them to better access satellite backup capacity 
in the event public radio's satellite capacity fails, is attacked, or 
otherwise becomes unavailable. Because of its broad scope, the 
realization of the full ContentDepot vision will take several years and 
ultimately will have a significant impact on radio station operations 
and program distribution practices.
Conclusion
    Public radio's long-standing commitment to serving America's 
communities with deep, engaged, long-form radio journalism sets it 
apart from all other broadcasters. Listeners have come to rely on 
public radio during the most intense news periods in our Nation's 
history. We have set the bar of public expectations exceedingly high 
because we're capable of providing service that isn't found anywhere 
else. We respect the public in ways that have been long forgotten in 
American broadcasting. Our relationship with listeners is not 
transactional. It is a relationship of values.
    Mr. Chairman, and Members of the Committee, thanks for this 
opportunity to support the reauthorization of CPB and to provide a 
summary of public radio in America today.

    The Chairman. Thank you.
    Welcome, Mr. Burns.

 STATEMENT OF KEN BURNS, FILMAKER, FLORENTINE FILMS, ON BEHALF 
                             OF PBS

    Mr. Burns. Thank you, Mr. Chairman and Members of the 
Committee.
    It is an honor for me to appear before you today on behalf 
of CPB and PBS, and I'm grateful that you have given me this 
opportunity to express my thoughts.
    Let me say, from the outset, as a film producer and as a 
father of two almost-grown daughters increasingly concerned 
about the sometimes dangerous landscape of our television 
environment, that I am a passionate lifelong supporter of 
public television and its unique role in helping to stitch our 
exquisite, diverse, and often fragile culture together. Few 
institutions provide such a direct, grassroots way for our 
citizens to participate in the shared glories of their common 
past, in the power of the priceless ideals that have animated 
our remarkable republic and our national life for more than 200 
years, and in the inspirational life of the mind and the heart 
that an engagement with the arts and the humanities always 
provides. It is my wholehearted belief that anything that 
threatens this institution weakens our country. It's as simple 
as that.
    For more than 25 years, I have been producing historical 
documentary films celebrating the special messages American 
history continually directs our way. The subjects of these 
films range from the construction of the Brooklyn Bridge and 
the Statue of Liberty to the life of the turbulent demagogue, 
Huey Long, from the graceful architecture of the Shakers to the 
early founders of radio, from the sublime pleasures and 
unexpected lessons of our national pastime in jazz to the 
searing transcended experience of our Civil War, from Thomas 
Jefferson and Lewis and Clark to Frank Lloyd Wright, Elizabeth 
Cady Stanton, and Mark Twain. I even made a film on the history 
of this magnificent Capitol building and the much-maligned 
institution that is charged with conducting the people's 
business.
    In every instance, I consciously produce these films for 
national public television broadcast, not the commercial 
networks or cable. As an educational filmmaker, I am grateful 
to play even a small part in an underfunded broadcasting entity 
with one foot tenuously in the marketplace and the other 
decidedly and proudly out, which, among dozens of fabulously 
wealthy networks, just happens to produce, on shoestring 
budgets, the best news and public- affairs programming on 
television, the best science and nature programming, the best 
arts, the best children's shows, and, some say, the best 
history.
    Some critics say that PBS is no longer needed in this 
multichannel universe, that our government has no business in 
television or the arts and humanities, that we must let the 
marketplace alone determine everything in our cultural life, 
that a few controversial programs prove the political bias of 
the public television community. I feel strongly that I must 
address those assertions.
    First, let me share with you a few facts that might 
surprise you. As a result of media consolidation, public 
stations are frequently the last and only locally owned media 
operations in their markets. Despite the exponential growth of 
television options, 84 million people a week watch PBS, more 
than any cable outlet. It is the number one choice of video 
curriculum in the classroom, and its nonviolent, non-commercial 
children's programs are the number-one choice of parents. 
Indeed, as commercial television continues in its race to the 
bottom for ratings, PBS has earned the Nation's trust to 
deliver programs that both entertain and educate, and that do 
so in a manner that the public consistently rates as balanced 
and objective.
    But, above and beyond these facts, there is a larger 
argument to be made, one that is rooted in our Nation's 
history. Since the beginning of this country, our government 
has been involved in supporting the arts and the diffusion of 
knowledge, which was deemed as critical to our future as roads 
and dams and bridges. Early on, Thomas Jefferson and the other 
Founding Fathers knew that the pursuit of happiness did not 
mean a hedonistic pursuit of pleasure in the marketplace of 
things, but an active involvement of the mind in the higher 
aspects of human endeavor, a marketplace of ideas.
    Congress supported the journey of Lewis and Clark as much 
to explore the natural, biological, ethnographic, and cultural 
landscape of our expanding nation as to open up a new trading 
route to the Pacific. Congress supported numerous geographical, 
artistic, photographic, and biological expeditions to nearly 
every corner of the developing West. Congress funded, through 
the Farm Securities Administration, the work of Walker Evans 
and Dorothea Lange, and other great photographers, who captured 
for posterity the terrible human cost of the Great Depression.
    At the same time, Congress funded some of the most enduring 
writing ever produced about this country's people, its 
monuments, buildings, and back roads in the still much-used and 
admired WPA guides. Some of our greatest symphonic work, our 
most treasured dramatic plays, and early documentary film 
classics came from an earlier Congress's support. With 
Congress's great insight, PBS was born and grew to its 
startlingly effective maturity, echoing the same time-honored 
sense that our government has an interest in helping to sponsor 
communications, art, and education, just as it sponsors 
commerce.
    We are not talking about a 100 percent sponsorship, a free 
ride, but a priming of the pump, a way to get the juices 
flowing in the spirit of President Reagan's notion of a 
partnership between government and the private sector. The 
Corporation for Public Broadcasting Grant I got for the Civil 
War series attracted even more funds from General Motors and 
several private foundations, money that would not have been 
there had not CPB blessed this project with their rigorously 
earned imprimatur.
    However, some continue to believe that public television is 
a hotbed of thinking outside the mainstream. I wonder, though, 
have they ever been to a PBS station? I doubt it. PBS is the 
largest media enterprise in the world, reaching into the most 
remote corners of every state in the union, and enriching the 
lives of people of all backgrounds. It is also the largest 
educational institution in the country because of national and 
local services that help build school readiness, provide 
distance learning, GED prep, and essential workplace skills. 
Local public television stations are essentially conservative 
institutions filled with people who share the concerns of most 
Americans and who reflect the values of their own communities.
    Mr. Chairman, I know many people who criticize us as being 
too conservative, too middle-of-the-road, too safe. And in a 
free society, the rare examples of controversy that may run 
counter to our accepted canon, or one group's accepted canon, 
ought to be seen as a healthy sign that we are a nation 
tolerant of ideas, confident, as the recent tide of 
geopolitical history has shown, that the best ideas will always 
prevail. Unfortunately, too often today we have become so 
dialectically preoccupied, stressing our differences--black/
white, left/right, young/old, in/out, good/bad--that we have 
forgotten to select for the mitigating wisdom that reconciles 
these disparities into honest difference and collegiality, into 
a sense of belonging. And we long--indeed, ache--for 
institutions that suggest how we might all be bound back to the 
whole. PBS is one such institution.
    But there are still those who are sure that, without public 
television, the so-called marketplace would take care of 
everything, that what won't survive in the marketplace doesn't 
deserve to survive. Nothing could be further from the truth.
    Now, some forms of our creativity thrive in the 
marketplace, and that is a wonderful thing, reflected in our 
Hollywood movies and in our universally popular music. But let 
me say that the marketplace could not have made--and, to this 
day, could not make--my Civil War series; indeed, any of the 
films I have worked on. That series was shown on public 
television outside the marketplace, without commercial 
interruption, by far the single most important factor for our 
ensuring PBS continuing existence and for understanding the 
Civil War series' overwhelming success.
    All real meaning in our world accrues in duration. That is 
to say, that which we value most--our families, our work, the 
things we build, our art--has the stamp of our focused 
attention. Without that attention, we do not learn, we do not 
remember, we do not care, we are not responsible citizens.
    Most of the rest of the television environment has ignored 
this critical truth. For several generations how, TV has 
disrupted our attention every 8 minutes or less to sell us five 
or six or more different things, then sent us back, our ability 
to digest all the impressions compromised in the extreme.
    The programming on PBS, in all its splendid variety, offers 
the rarest treat amidst the outrageous cacophony our of our 
television marketplace. It gives us back our attention and our 
memory; and, by so doing, paradoxically ensures that we have a 
future.
    The marketplace will not--indeed, cannot--produce the good 
works of PBS, just as the marketplace does not come to your 
house at 3 a.m. when it is on fire, or patrols the dangerous 
ground in Afghanistan and Iraq. No, the marketplace does not 
and will not pay for our fire departments or, more important, 
our Defense Department, things essential to the safety, 
defense, and well-being of our country. It takes government 
involvement, eleemosynary institutions, individual altruism, 
extra-marketplace effort to get these things made and done.
    I also know, Mr. Chairman, that PBS has nothing to do with 
the actual defense of our country. I know that. PBS, I believe 
with every fiber of my being, just helps make our country worth 
defending.
    Thank you.
    [The prepared statement of Mr. Burns follows:]

     Prepared Statement of Ken Burns, Filmaker, Florentine Films, 
                            on Behalf of PBS
    Mr. Chairman and Members of the Committee: It is an honor for me to 
appear before you today on behalf of PBS. I am grateful that you have 
given me this opportunity to express my thoughts. Let me say from the 
outset--as a film producer and as a father of two daughters 
increasingly concerned about the sometimes dangerous landscape of our 
television environment--that I am a passionate life-long supporter of 
public television and its unique role in helping to stitch our 
exquisite, diverse, and often fragile culture together.
    Few institutions provide such a direct, grassroots way for our 
citizens to participate in the shared glories of their common past, in 
the power of the priceless ideals that have animated our remarkable 
republic and our national life for more than two hundred years, and in 
the inspirational life of the mind and the heart that an engagement 
with the arts always provides. It is my wholehearted belief that 
anything that threatens this institution weakens our country. It is as 
simple as that.
    For more than 25 years I have been producing historical documentary 
films, celebrating the special messages American history continually 
directs our way. The subjects of these films range from the 
construction of the Brooklyn Bridge and the Statue of Liberty to the 
life of the turbulent demagogue Huey Long; from the graceful 
architecture of the Shakers to the early founders of radio; from the 
sublime pleasures and unexpected lessons of our national pastime and 
Jazz to the searing transcendent experience of our Civil War; from 
Thomas Jefferson and Lewis and Clark to Frank Lloyd Wright, Elizabeth 
Cady Stanton and Mark Twain. I even made a film on the history of this 
magnificent Capitol building and the much maligned institution that is 
charged with conducting the people's business.
    In every instance, I consciously produced these films for national 
public television broadcast, not the commercial networks or cable.
    As an educational filmmaker, I am grateful to play even a small 
part in an underfunded broadcasting entity with one foot tenuously in 
the marketplace and the other decidedly and proudly out, which, among 
dozens of fabulously wealthy networks, just happens to produce--on 
shoestring budgets--the best news and public affairs programming on 
television, the best science and nature programming on television, the 
best arts on television, the best children's shows on television, and, 
some say, the best history on television.
    When I was working more than 15 years ago on my film about the 
Statue of Liberty, its history and powerful symbolism, I had the great 
good fortune to meet and interview Vartan Gregorian, who was then the 
president of the New York Public Library. After an extremely 
interesting and passionate interview on the meaning behind the statue 
for an immigrant like him--from Tabriz, Iran--Vartan took me on a long 
and fascinating tour of the miles of stacks of the Library. Finally, 
after galloping down one claustrophobic corridor after another, he 
stopped and gestured expansively. ``This,'' he said, surveying his 
library from its guts, ``this is the DNA of our civilization.''
    I think he was saying that that library, indeed, all libraries, 
archives, and historical societies are the DNA of our society, leaving 
an imprint of excellence and intention for generations to come. It 
occurs to me this morning, as we consider the rich history of service 
and education of PBS, that we must certainly include this great 
institution in that list of the DNA of our civilization. That public 
television is part of the great genetic legacy of our Nation. And that 
cannot, should not, be denied us or our posterity.
    PBS has consistently provided, with its modest resources, and over 
more than three tumultuous decades, quite simply an antidote to the 
vast wasteland of television programming Newton Minnow so accurately 
described. We do things differently. We are hardly a ``disappearing 
niche,'' as some suggest, but a vibrant, galvanic force capable of 
sustaining this experiment well into our uncertain future.
    Some critics say that PBS is no longer needed in this multi-channel 
universe, that our government has no business in television or the arts 
and humanities, that we must let the marketplace alone determine 
everything in our cultural life, that a few controversial programs 
prove the political bias of the public television community. I feel 
strongly that I must address those assertions.
    First let me share a few facts that might surprise you: As a result 
of media consolidation, public stations are frequently the last and 
only locally owned media operations in their markets. Despite the 
exponential growth of television options, 84 million people a week 
watch PBS -more than any cable outlet. It is the number one choice of 
video curriculum in the classroom and its non-violent, non-commercial 
children's programs are the number one choice of parents. Indeed, as 
commercial television continues in its race to the bottom for ratings, 
PBS has earned the Nation's trust to deliver programs that both 
entertain and educate and that do so in a manner that the public 
consistently rates as balanced and objective.
    But above and beyond these facts that demonstrate the ways in which 
PBS is more important than ever in helping to address the public's 
needs today, there is a larger argument to be made--one that is rooted 
in our Nation's history. Since the beginning of this country, our 
government has been involved in supporting the arts and the diffusion 
of knowledge, which was deemed as critical to our future as roads and 
dams and bridges. Early on, Thomas Jefferson and the other founding 
fathers knew that the pursuit of happiness did not mean a hedonistic 
search for pleasure in the marketplace of things, but an active 
involvement of the mind in the higher aspects of human endeavor--namely 
education, music, the arts, and history--a marketplace of ideas. 
Congress supported the journey of Lewis and Clark as much to explore 
the natural, biological, ethnographic, and cultural landscape of our 
expanding nation as to open up a new trading route to the Pacific. 
Congress supported numerous geographical, artistic, photographic, and 
biological expeditions to nearly every corner of the developing West. 
Congress funded, through the Farm Securities Administration, the work 
of Walker Evans and Dorothea Lange and other great photographers who 
captured for posterity the terrible human cost of the Depression. At 
the same time, Congress funded some of the most enduring writing ever 
produced about this country's people, its monuments, buildings, and 
back roads in the still much used and admired WPA guides. Some of our 
greatest symphonic work, our most treasured dramatic plays, and early 
documentary film classics came from an earlier Congress' support.
    With Congress' great insight PBS was born and grew to its 
startlingly effective maturity echoing the same time-honored sense that 
our Government has an interest in helping to sponsor Communication, Art 
and Education just as it sponsors Commerce. We are not talking about a 
100 percent sponsorship, a free ride, but a priming of the pump, a way 
to get the juices flowing, in the spirit of President Reagan's notion 
of a partnership between the government and the private sector. The 
Corporation for Public Broadcasting grant I got for the Civil War 
series attracted even more funds from General Motors and several 
private foundations; money that would not have been there had not the 
Corporation for Public Broadcasting blessed this project with their 
rigorously earned imprimatur.
    But there are those who are sure that without public television, 
the so-called ``marketplace'' would take care of everything; that what 
won't survive in the marketplace, doesn't deserve to survive. Nothing 
could be further from the truth. Because we are not just talking about 
the commerce of a nation. We are not just economic beings, but 
spiritual and intellectual beings as well, and so we are talking about 
the creativity of a nation. Now, some forms of creativity thrive in the 
marketplace and that is a wonderful thing, reflected in our Hollywood 
movies and our universally popular music. But let me say that the 
marketplace could not have made and to this day could not make my Civil 
War series, indeed any of the films I have worked on.
    That series was shown on public television, outside the 
marketplace, without commercial interruption, by far the single most 
important factor for our insuring PBS's continuing existence and for 
understanding the Civil War series' overwhelming success. All real 
meaning in our world accrues in duration; that is to say, that which we 
value the most--our families, our work, the things we build, our art--
has the stamp of our focused attention. Without that attention, we do 
not learn, we do not remember, we do not care. We are not responsible 
citizens. Most of the rest of the television environment has ignored 
this critical truth. For several generations now, TV has disrupted our 
attention every eight minutes (or less) to sell us five or six 
different things, then sent us back, our ability to digest all the 
impressions compromised in the extreme. The programming on PBS in all 
its splendid variety, offers the rarest treat amidst the outrageous 
cacophony of our television marketplace--it gives us back our attention 
and our memory. And by so doing, insures that we have a future.
    The marketplace will not, indeed cannot, produce the good works of 
PBS. Just as the marketplace does not come to your house at 3:00am when 
it is on fire or patrols the dangerous ground in Afghanistan and Iraq. 
No, the marketplace does not and will not pay for our fire departments 
or more important our Defense Department, things essential to the 
safety, defense and well-being of our country. It takes government 
involvement, eleemosynary institutions, individual altruism, extra-
marketplace effort to get these things made and done. I also know, Mr. 
Chairman, that PBS has nothing to do with the actual defense of our 
country, I know that--PBS, I believe with every fiber of my being, just 
helps make our country worth defending.
    The meat and potatoes of public television reaches out to every 
corner of the country and touches people in positive ways the Federal 
Government rarely does. Recent research suggests that PBS is the most 
trusted national institution in the United States. Indeed, it would be 
elitist itself to abolish public television, to trust to the 
marketplace and the ``natural aristocracy'' that many have promised 
over the last two hundred years would rise up to protect us all--and 
hasn't. Those who labor in public television are not unlike those in 
public service who sacrifice job security, commensurate pay, and who 
are often misunderstood by a media culture infatuated by their 
seemingly more glamorous colleagues.
    With regard to my own films, I have been quite lucky. The Civil War 
series was public television's highest rated program and has been 
described as one of the best programs in the history of the medium. But 
that show, indeed all of my films produced over the last quarter of a 
century, are only a small part, a tiny fraction, of the legacy of PBS. 
If public television's mission is severely hampered or curtailed, I 
suppose I will find work, but not the kind that ensures good television 
or speaks to the overarching theme of all my films--that which we 
Americans all hold in common. But more to the point, where will the 
next generation of filmmakers be trained? By the difficult rigorous 
proposal process of CPB and PBS or by the ``gotcha,'' hit and run 
standards of our commercial brethren? I hope it will be the former.
    The former Speaker of the House of Representatives Newt Gingrich 
spoke eloquently and often of an American people poised for the twenty-
first century, endowed with a shared heritage of sacrifice and honor 
and the highest ideals mankind has yet advanced, but also armed with 
new technologies that would enable us to go forward as one people. I 
say to all who would listen that we have in public television exactly 
what he envisions.
    Unfortunately, some continue to believe that public television is a 
hotbed of thinking outside the mainstream. I wonder, though, have they 
ever been to a PBS station? I doubt it. PBS is the largest media 
enterprise in the world, reaching into the most remote corners of every 
state in the Union and enriching the lives of people of all 
backgrounds. It is also the largest educational institution in the 
country--because of national and local services that help build school 
readiness, support schools, provide distance learning, GED prep and 
essential workplace skills. Local public television stations are 
essentially conservative institutions, filled with people who share the 
concerns of most Americans and who reflect the values of their own 
communities. And Mr. Chairman, I know many people who criticize us as 
too conservative, too middle of the road, too safe.
    And in a free society, the rare examples of controversy that may 
run counter to our accepted cannon, or one group's accepted cannon 
ought to be seen as a healthy sign that we are a nation tolerant of 
ideas, confident--as the recent tide of geo-political history has 
shown--that the best ideas will always prevail.
    One hundred and sixty-six years ago, in 1838, well before the Civil 
War, Abraham Lincoln challenged us to consider the real threat to the 
country, to consider forever the real cost of our inattention: ``Whence 
shall we expect the approach of danger?'' he wrote. ``Shall some 
transatlantic giant step the earth and crush us at a blow? Never. All 
the armies of Europe and Asia could not by force take a drink from the 
Ohio River or make a track in the Blue Ridge in the trial of a thousand 
years. No, if destruction be our lot, we must ourselves be its author 
and finisher.'' As usual, Mr. Lincoln speaks to us today with the same 
force he spoke to his own times.
    The real threat always and still comes from within this favored 
land, that the greatest enemy is, as our religious teachings constantly 
remind us, always ourselves. Today, we have become so dialectically 
preoccupied, stressing our differences; black/white, left/right, young/
old, in/out, good/bad, that we have forgotten to select for the 
mitigating wisdom that reconciles these disparities into honest 
difference and collegiality, into a sense of belonging. And we long, 
indeed ache, for institutions that suggest how we might all be bound 
back to the whole. PBS is one such institution.
    The clear answer is tolerance, a discipline sustained in nearly 
every gesture and breath of the public television I know. We are a 
nation that loses its way only when we define ourselves by what we are 
against not what we are for. PBS is that rare forum where more often 
than not we celebrate what we are for; celebrate, why, against all 
odds, we Americans still agree to cohere.
    On the other hand, we in public television must not take ourselves 
too seriously. Sometimes our greatest strength, our earnestness and 
seriousness, has metastasized into our greatest weakness. Usually a 
faithful and true companion, that earnestness and seriousness is 
sometimes worked to death. And Lord, how we sometimes like to see our 
mission as the cure. I remember once, after giving an impassioned 
defense of what we do at PBS, a man came up to me and said simply, 
``It's not brain surgery, you know.'' He was right, of course, but 
sometimes we do effect subtler changes; help in quotidian ways.
    Not too long ago, on a perfect spring day, I was walking with my 
oldest daughter through a park in a large American city on the way to 
her college interview. We were taking our time, enjoying the first warm 
day of the year, when a man of about thirty, dressed in a three piece 
suit, approached me.
    ``You're Ken Burns.'' he asked.
    I nodded.
    ``I need to talk to you about Baseball,'' he said under his breath.
    ``Okay.'' I hesitated.
    Then, he blurted out: ``My brother's daughter died.'' I took a step 
backward, stepping in front of my daughter to protect her.
    ``Okay,'' I said tentatively. I didn't know what else to say.
    ``SIDS.'' he said. ``Crib death. She was only one.''
    ``I'm so sorry,'' I said. ``I have daughters.''
    ``I didn't know what to do,'' he said in a halting, utterly sad 
voice. ``My brother and I are very close. Then I thought of your film. 
I went home to our mother's house, got our baseball mitts, and went to 
my brother's. I didn't say a word. I handed him his mitt and we went 
out into the backyard and we played catch wordlessly for an hour. Then 
I went home. . . . I just wanted to thank you.''
    Maybe it is brain surgery.
    Mr. Chairman, most of us here, whether we know it or not, are in 
the business of words. And we hope with some reasonable expectations 
that those words will last. But alas, especially today, those words 
often evaporate, their precision blunted by neglect, their insight 
diminished by the shear volume of their ever increasing brethren, their 
force diluted by ancient animosities that seem to set each group 
against the other.
    The historian Arthur Schlesinger, Jr. has said that we suffer today 
from ``too much pluribus, not enough unum.'' Few things survive in 
these cynical days to remind us of the Union from which so many of our 
personal as well as collective blessings flow. And it is hard not to 
wonder, in an age when the present moment overshadows all else--our 
bright past and our unknown future--what finally does endure? What 
encodes and stores that genetic material of our civilization, passing 
down to the next generation--the best of us--what we hope will mutate 
into betterness for our children and our posterity.
    PBS holds one clear answer. It is the best thing we have in our 
television environment that reminds us why we agree to cohere as a 
people. And that is a fundamentally good thing.
    Nothing in our daily life offers more of the comfort of continuity, 
the generational connection of belonging to a vast and complicated 
American family, the powerful sense of home, and the great gift of 
accumulated memory than does this great system which honors me by 
counting me a member one of its own.

    The Chairman. Very well said, Mr. Burns.
    Ms. Taylor, welcome.

        STATEMENT OF LORIS ANN TAYLOR, GENERAL MANAGER, 
                        KUYI HOPI RADIO

    Ms. Taylor. Chairman McCain and Members of the Committee, 
greetings from Hopi, and thank you for this opportunity.
    Today, I would like to focus on the Native American public 
radio system, which consists of 32 radio stations located 
throughout Indian country in nine states, reaching more than 
500,000 listeners. Native Public Radio is supported by the work 
of the American Indian Radio on Satellite, a program 
distribution operation based in Lincoln, Nebraska, and Koahnic 
Broadcast Corporation, a major national production center with 
offices in Anchorage, Alaska, and Albuquerque, New Mexico.
    My perspective is based on my experience and 
responsibilities as General Manager for KUYI, an FM station 
located on the Hopi Reservation in Northern Arizona. My station 
has been on-air for 4 years.
    As sole service providers, Native stations offer some of 
the best examples of the powerful benefits that accrue to 
communities because of strong public broadcasting outlets with 
deep local roots and strong commitments to local service. The 
Indian Country News Bureau, a partnership between Northern 
Arizona University's public radio station, KNAU, and KUYI, was 
established in response to a desire in both communities to have 
better local news coverage. And it works, because both partners 
agree there is an important need to introduce Native American 
issues onto the mainstream National Public Radio communications 
highway. As a result, stories like the Hopi people's vote 
against gaming cannot only be heard on KUYI, but on Arizona 
Public Radio and NPR, as well.
    Native stations play a significant role in keeping Native 
languages alive, and, in some cases, have led to a resurgence 
in Native-language use. On my reservation, the loss of the Hopi 
language is more than 90 percent in some villages. This fact 
makes our Hopi language programs extremely important.
    Native stations provide important educational and health 
programming. KUYI Housecalls, a weekly program, connects the 
radio station with the work of the Hopi Healthcare Center by 
providing critical information on diabetes, alcohol and 
substance abuse, and heart disease.
    Whether broadcasting from remote Native communities in 
Bethel and Barrow, Alaska, the Pine Ridge Sioux Reservation, or 
Navajo lands in New Mexico, the overarching role of Native 
Public Radio is to serve as an important voice and leader 
within Native communities.
    CPB provides much of the funding that makes Native Public 
Radio possible, and these investments are producing important 
returns. Native America Calling, a daily live call-in program 
about relevant and current issues, connects tribes 
electronically. AIROS distributes programming 24 hours-a-day, 
allowing stations to extend their broadcast days while making 
the most of very limited staff resources.
    CPB's support of core Native radio programming has been 
critical to its development and survival. On average, CPB 
provides nearly one-third of overall annual revenues for Native 
stations.
    In spite of its many successes, there is no question that 
Native radio operates in very difficult environments and 
continues to face enormous challenges. The circumstances, 
resources, and history of the Native radio system are very 
different from mainstream public radio and its model of 
listener-based contributions and financial support. Financial 
constraints, tribal dynamics, widely scattered Native 
populations, and poor tribal economies with high unemployment 
are all significant limiting factors.
    One of the most promising changes on the horizon of Native 
radio is the proposed establishment of the Center for Native 
American Public Radio. With an initial investment from CPB, the 
center will serve as a critical role in identifying and 
developing specific strategies to bring new resources into the 
Native public radio system. It will also provide leadership and 
efficiency, and make centralized services available in 
engineering and financial management to help stations enhance 
their operations. The center will be established within the 
National Federation of Community Broadcasters, an organization 
dedicated to serving community stations for over 29 years.
    The CPB provides vital assistance, and its continued 
support of the Native public radio system is critical. Congress 
can help by providing continued funding for CPB and by 
supporting CPB's key priorities for Native Public Radio's long-
term sustainability.
    I thank the leadership of CPB, and in particular President 
and CEO Kathleen Cox and Senior Vice President Vincent Curren 
for making it a priority to take a firsthand look at the state 
of the Native American public radio system and for working hard 
to improve that system. On behalf of the Native American public 
radio system, Chairman McCain and Members of this Committee, 
thank you for the years of support and the wise guidance you 
have given to public broadcasting.
    I ask that this Committee reauthorize the Corporation for 
Public Broadcasting and continue to support the good work that 
it does.
    Thank you. Asquali.
    [The prepared statement of Ms. Vicente-Taylor follows:]

       Prepared Statement of Loris Ann Taylor, General Manager, 
                            KUYI Hopi Radio
Introduction
    Chairman McCain and members of the Committee, thank you for this 
opportunity to offer testimony in support of the reauthorization of the 
Corporation for Public Broadcasting. Today, I would like to focus on 
the Native American Public Radio system which consists of 32 radio 
stations located throughout Indian Country in nine states reaching more 
than 500,000 listeners. Native Public Radio is supported by the work of 
the American Indian
    Radio on Satellite--a program distribution operation based in 
Lincoln, Nebraska, and Koahnic Broadcast Corporation -a major national 
production center with offices in Anchorage, Alaska and Albuquerque, 
New Mexico.
    My perspective is based on my experience and responsibilities as 
general manager for KUYI, an FM station located on the Hopi Reservation 
in Northern Arizona. My station has been on-air for four years.
The Role of Radio in Indian Country
    As sole service providers, Native stations offer some of the best 
examples of the powerful benefits that accrue to communities because of 
strong public broadcasting outlets with deep local roots and strong 
commitments to local service.
    The Indian Country News Bureau--a partnership between Northern 
Arizona University's public radio station KNAU and KUYI--was 
established in response to a desire in both communities to have better 
local news coverage; and it works because both partners agree there is 
an important need to introduce Native American issues onto the 
mainstream National Public Radio communications highway. As a result, 
stories like the Hopi people's vote against gaming can be heard not 
only on KUYI but on Arizona Public Radio and NPR as well.
    Native stations play a significant role in keeping native languages 
alive and, in some cases, have led to resurgence in native language 
use. On my Reservation, the loss of the Hopi language is more than 90 
percent in some villages. This fact makes our Hopi language programs 
extremely important.
    Native stations provide important educational and health 
programming. KUYI House Calls, a weekly program, connects the radio 
station with the work of the Hopi Health Care Center by providing 
critical information on diabetes, alcohol and substance abuse, and 
heart disease. KUYI in partnership with the Hopi Junior-Senior High 
School established the first Radio Class with the two-fold mission of 
building succession for the radio station and to open career 
opportunities for local students in the field of communications.
    Whether broadcasting from remote Native communities in Bethel and 
Barrow Alaska, the Pine Ridge Sioux Reservation, or Navajo lands in New 
Mexico, the overarching role of Native Public Radio is to serve as an 
important voice and leader within native communities.
Funding Indian Country Radio
    CPB provides much of the funding that makes Native Public Radio 
possible and these investments are producing important returns. Native 
America Calling, a daily live call-in program about relevant and 
current issues, connects tribes electronically. AIROS distributes 
programming twenty-four hours a day, allowing stations to extend their 
broadcast days while making the most of very limited staff resources. 
CPB's support of core Native Radio programming has been critical to its 
development and survival. On average, CPB provides nearly one-third of 
overall annual revenues for Native stations.
    In spite of its many successes, there is no question that Native 
Radio operates in very difficult environments and continues to face 
enormous challenges. The circumstances, resources and history of the 
Native Radio System are very different than ``mainstream'' public radio 
and its model of listener-based contributions and financial support. 
Financial constraints, tribal dynamics, widely scattered Native 
populations, and poor tribal economies with high unemployment, are all 
significant limiting factors.
The Center for Native American Public Radio
    One of the most promising changes on the horizon of Native Radio is 
the proposed establishment of the Center for Native American Public 
Radio. With an initial investment from CPB, the Center will serve a 
critical role in identifying and developing specific strategies to 
bring new revenue resources into the Native Public Radio System. It 
will also provide leadership and efficiency; and make centralized 
services available in engineering and financial management to help 
stations enhance their operations. The Center will be established 
within the National Federation of Community Broadcasters (NFCB), an 
organization dedicated to serving community stations for over 29 years.
Conclusion
    The CPB provides vital assistance and its continued support of the 
Native Public Radio System is critical. Congress can help by providing 
continued funding for CPB and by supporting CPB's key priorities for 
Native public radio's long-term sustainability.
    I thank the leadership of CPB and in particular, President and CEO 
Kathleen Cox and Senior Vice President Vincent Curren for making it a 
priority to take a first-hand look at the State of the Native American 
Public Radio System and for working hard to improve the system. On 
behalf of the Native American Public Radio System, Chairman McCain, and 
members of this Committee, thank-you for the years of support and wise 
guidance you have given to public broadcasting. I ask that this 
Committee reauthorize the Corporation for Public Broadcasting and 
continue to support the good work that it does.
    Chairman McCain, I would also like to submit a couple documents for 
the record as part of my testimony.
                                 ______
                                 
                                                      July 12, 2004

    Chairman McCain and Members of the Commerce, Science, and 
Transportation Committee:

    I am writing today to share with you some of the accomplishments of 
Koahnic Broadcast Corporation, the Native media center headquartered in 
Anchorage, Alaska, and to let you know how instrumental funding and 
support from the Corporation for Public Broadcasting has been in making 
these accomplishments possible.
    Koahnic Broadcast Corporation (KBC), established in 1992, is the 
leading producer of nationally distributed Native American programming 
for public radio. From the Badlands of the Dakotas to the streets of 
New York, and from the Bering Sea to the LA freeways, KBC's technically 
and editorially high-quality programs are adding to the diversity of 
viewpoints available to the American general public as well as within 
and between Native communities.
    In Alaska, where according to recent U.S. Census figures nearly 20 
percent of the statewide population is Native, KBC has established KNBA 
90.3 FM, the Nation's first Native public radio station in an urban 
area. KNBA's progressive music format is infused with the music of 
contemporary Native artists, and its morning, mid-day and afternoon 
broadcasts feature local Native news, interviews with local Native 
leaders and community members, community reports and public service 
announcements.
    Without CPB funding, radio stations serving diverse audiences in 
the way that KNBA does would literally be unable to exist. CPB funding 
has made it possible for KNBA to pioneer and refine its unique mix of 
progressive music and award-winning Native programs by supporting both 
local production and the acquisition of national programming. With CPB 
providing basic annual support, KNBA is able to incorporate elements 
like news from National Public Radio and the Alaska Public Radio 
Network, and programs from American Indian Radio on Satellite in order 
to broaden the listenership of the station while maintaining its unique 
and important focus on original Native programming for local, regional 
and national audiences.
    Our yearly station grant from CPB funding supports our efforts to 
build a sustainable financial base for KNBA over time. KNBA membership 
dollars consistently grow with each membership drive, and CPB support 
helps KNBA leverage funding from foundation funders and state arts and 
humanities agencies, as well as business underwriting for cultural and 
news programming on KNBA.
    The mission of KBC is to be the leader in bringing Native voices to 
the region and the nation, and in accordance with this mission, KBC not 
only operates KNBA 90.3 FM, but produces three national Native American 
radio programs: Native America Calling (NAC), National Native News 
(NNN), and the weekly program of Native music and culture, Earthsongs. 
These three programs reach national audiences through radio stations 
nationwide, including almost every Native station. In addition, they 
are available on the Internet for listeners worldwide to listen in and 
participate in discussions.
    Native America Calling, is a daily live talk program that links 
Native radio stations and their listeners together in a national 
discourse. Through NAC, members of rural and reservation Native 
communities and Native people listening from urban areas can call in 
and speak directly to people closest to Native issues. For its entire 
17 years, National Native News has been the leading daily news service 
focused on Native issues. NNN is perhaps the most widely heard, daily 
minority news program in the country. Functioning as the equivalent of 
the All Things Considered of Native radio, NAC and NNN are the uniting 
force in Native radio and serve as the common carried programs. 
Broadcast by nearly every Native station, these programs provide a 
common voice for all American Natives.
    Despite the recognized service these programs provide, they have 
historically operated on a budget barely adequate to survive. CPB, a 
committed and involved funding partner from the beginning, has 
recognized the critical importance of these programs to Native radio 
and has recently granted support through 2006 to NAC and NNN, to 
strengthen all facets of both programs for long-term significance, 
sustainability and viability.
    Native radio stations are providing important service to their 
communities. They are often considered essential institutions in their 
communities and, in many places, are the only source of hard news and 
information about issues of concern to Native Americans. In addition, 
they are also key cultural assets; keeping Native languages alive, and 
acting as a holder of history and culture-acting as a ``home'' to those 
who live within, the station's signal.
    CPB funding investments in programming and infrastructure have 
clearly paid off, as national programming for the Native radio system 
has become an essential element in the program service offered by 
stations in their communities. Native America Calling, for example, has 
almost universal live carriage by Native stations and provides the only 
national daily conversation among Natives about important issues.
    Koahnic Broadcast Corporation is proud of our many accomplishments, 
including the numerous regional and national awards for news programs 
and cultural features we have produced, the opportunity to provide 
training and assistance to early-career Native broadcasters and to 
rural Native stations such as KUYI in Arizona and KCUK in Chevak, 
Alaska, statewide broadcasts of the annual Alaska Federation of Natives 
Convention and nationwide broadcasts of significant Native events 
including the 3rd and 4th annual Native American Music Awards, our 
success in growing membership and underwriting revenues, and the 
establishment of a Native Program Fund Endowment designed to ensure 
that quality Native programming is sustained over time. This pride in 
our accomplishments is greatly mixed with sincere gratitude for the 
essential part CPB has played both in our success, and in the growth of 
Native broadcasting throughout the Nation.
            Best regards,
                                             Jaclyn Sallee,
                                                 President and CEO.
                                 ______
                                 
                                                       July 1, 2004
Wayne Taylor, Jr.,
Chairman.

Caleb H. Johnson,
Vice Chairman.

Senator John McCain, 
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator McCain:

    I am writing this letter in support of KUYI 88.1 FM, a Native owned 
radio station. I write in support of continued funding of Native radio 
in Indian Country. KUYI made its on-air debut on Dec. 20, 2000 after 
years of planning and development. The station has never looked back, 
but is instead progressing toward increasing standards of excellence.
    Last year, Vincent Curren, senior vice president of Radio for the 
Corporation for Public Broadcasting (CPB) visited KUYI to understand 
what makes Native radio stations so unique. Mr. Curren expressed how 
thoroughly impressed he was with the station's service and described it 
as one ``that provides an amazing level of community service and serves 
as a model for other stations to follow.''
    KUYI is just one of 32 Native radio stations in 9 states in the 
United States. CPB allows Native radio to have a strong, far-reaching 
voice on Native homelands. We need more stations like these in Indian 
Country. Such stations provide a wealth of knowledge and cultural 
exchange.
    KUYI, and others in Indian country, is not just a radio station; 
it's a school without walls. It's an institution that teaches, employs, 
educates, and provides a voice for the community.
    I have found in my capacity as public relations officer for the 
Hopi Tribe that KUYI is indispensable. My office provides a weekly 
broadcast called the ``Hopi Tribal Report''. It is a news format 
program that provides updates to the Hopi public about occurrences in 
the tribal, state and Federal government. Further, whenever breaking 
news occurs, I immediately call KUYI because it is a guaranteed source 
to keep the Hopi community abreast of developing stories. I trust that 
it will continue to be such an institution. It provides a tangible 
means to preserving the Hopi people's heritage and culture especially 
when the broadcasts are conducted in the Hopi language. Similar radio 
stations on other reservations can attest to these claims as well. I 
hope that Native radio will continue to be a legacy for all Native 
people. I have faith that funding and support from CPB will not be 
interrupted for Native radio.
            Respectfully,
                                        Vanessa A. Charles,
                                          Public Relations Officer,
                                                        The Hopi Tribe.
                                 ______
                                 
                                                       July 9, 2004
Senator John McCain,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator McCain,

    The Corporation for Public Broadcasting (CPB) has been instrumental 
in making possible the Indian Country News Bureau (ICNB) partnership 
between public radio stations KNAU and KUYI.
    The ICNB gathers and distributes significant news from northeastern 
Arizona and the Four Comers area to public radio stations throughout 
the region. Numerous reports have been nationally broadcast on NPR, 
National Native News and other public radio programs.
    Northern Arizona University (NAU), the licensee of KNAU-FM, has as 
one of its Strategic Goals to ``Be the Nation's Leading University 
Serving Native Americans.'' NAU is proud to be a partner in the Indian 
Country News Bureau initiative.
    One of public radio's principal functions is providing lifelong 
learning opportunities as a public service. Indian Country News Bureau 
lives up to that lofty ambition. Listeners to ICNB reports have gained 
tremendous insight into issues and concerns of Native American people. 
They have heard about the successes as well as the challenges facing 
indigenous people. For instance:

  <bullet> Navajo tribal consideration of the death penalty

  <bullet> White Mountain Apache economic recovery from devastating 
        fires.

  <bullet> Zuni water rights legislation.

  <bullet> Hopi tradition of cross-country running.

    ICNB productions have received awards from the Arizona Associated 
Press, the Radio Television and News Directors Association, the 
National Federation of Community Broadcasters, and Public Radio News 
Directors Incorporated.
    Perhaps most significantly, ICNB has advanced understanding between 
Native and non-Native peoples. None of this would have been possible 
without initial financial support and encouragement from the 
Corporation for Public Broadcasting.
    I urge the U.S. Senate to reauthorize CPB and to continue its 
generous financial support of CPB.
            Respectfully submitted,
                                                John Stark,
                                              KNAU General Manager.

    The Chairman. Thank you very much.
    Mr. Frid?

          STATEMENT OF PETER A. FRID, CEO AND GENERAL

   MANAGER, NEW HAMPSHIRE PUBLIC TELEVISION ON BEHALF OF THE 
           ASSOCIATION OF PUBLIC TELEVISION STATIONS

    Mr. Frid. Thank you, Mr. Chairman. It's an honor to have 
the opportunity to testify today on behalf of the Association 
of Public Television Stations, which represents local licensees 
all across America.
    Prior to joining NHPTV, in 1996, I managed public stations 
in Corpus Christi, Texas; Juneau, Alaska; and Long Island, New 
York. What all of these stations have in common is their public 
service mission. Each station must meet its local community 
needs for programming, education, and outreach. I emphasize the 
word ``local,'' because, simply put, public television 
stations' localism is without rival today.
    Mr. Chairman, let me express our stations' support for the 
bipartisan approach that you and Ranking Member Hollings have 
taken in reauthorizing the Public Broadcasting Act of 1967. It 
strikes the right balance between reform and not trying to fix 
what isn't broken.
    The institution of public television is more necessary now 
than in 1967, for many reasons. Let me offer three:
    First, education services. NHPTV's Knowledge Network 
provides education services at all levels, including the Ready 
to Learn service, which has no parallel in commercial 
children's television. Ready to Learn combines high quality PBS 
programming with local station outreach workshops, and achieves 
measurable improvement in early childhood learning. NHPTV is 
also proud to offer online teacher training through the PBS 
TeacherLine service, which is a line to the individual state 
curriculum standards. Both services were authorized by the No 
Child Left Behind Act, and neither could exist without the 
delivery system of local stations backed by a national 
programming service, PBS.
    Second, public affairs. Mr. Chairman, you were a frequent 
visitor to our state in 2000, and, of course, are familiar with 
the Presidential primary debates that NHPTV sponsored. But 
candidate access to our airways is not limited to high-profile 
races. In 2002, we broadcast seven separate Federal and 
statewide candidate debates, and we'll do the same this year. 
And our nightly public-affairs program, New Hampshire Outlook, 
offers direct access to political candidates at all levels.
    Third, universal service. It is important to recall that 
the 500-channel world exists only for those households that pay 
for cable and satellite subscription services. For one in five 
Americans, it does not. People like Steve Barba, in Dixville 
Notch, rely on us for New Hampshire-based programming. 
Connecting Steve and others to our service is reason enough for 
Congress to fund public television.
    Mr. Chairman, as you prepare to introduce your 
reauthorization bill, we ask that you continue funding CPB. 
That is the lifeblood of our stations. Nearly all the funding 
is distributed directly to stations by formula, and represents 
an average of 15 percent of the stations' budgets. The CPB also 
has provided additional funding to help stations meet special 
needs. For instance, a CPB-funded grant allowed NHPTV to 
initiate the Partnership for a Safe New Hampshire to address 
emergency management and preparedness for our homeland 
security.
    In short, the annual CPB appropriation has a real impact on 
helping stations fulfill the twin objectives of localism and 
public service. We believe it follows that expanding the input 
of local stations in governing CPB would improve responsiveness 
of the system to localism. Current law designates that two of 
the nine seats on the CPB board be filled by representatives 
from local stations. We propose that that number be increased 
and to provide additional input for local stations. Reforming 
the governance of CPB in this manner creates more assured 
accountability for stations and CPB to the communities that we 
serve, and we look forward to working with the Committee and 
CPB to accomplish that goal.
    Finally, Mr. Chairman, our local stations view digital 
transition as their greatest opportunity to serve the public. 
Since the DTV transition began, our system raised more than a 
billion dollars to make the conversion. We are, therefore, 
hopeful that your draft bill will reauthorize two key programs, 
CPB's temporary digital program, and the Department of Commerce 
longstanding Public Telecommunications Facilities Program.
    In 2002, a PTFP grant paid for the digital conversion of 
our transmitter and tower in Keene, New Hampshire. And this 
year, New Hampshire Public Television received an additional 
grant from CPB to convert our master control room to digital. 
These programs are good investments for the Federal Government 
in the truest sense of the word.
    Digital television means more than simply broadcast 
television, and we ask that you consider expanding the 
definition of what may be funded to include datacasting. At 
NHPTV, we see enormous potential to enhance our work with K-12, 
higher education, and the New Hampshire Office of Emergency 
Management through datacasting.
    And, finally, we hope that you will authorize funding to 
replace PTV's interconnection system, which links local 
stations with PBS.
    Our stations currently spend an estimated $36 million a 
year to run two redundant transmitters, and about $20 million 
per year replacing analog equipment. Those costs, together, 
exceed the $50 million Congress appropriated last year to CPB 
for digital funding. We look forward to the day when this money 
can be invested in the delivery of services rather than old and 
costly technology.
    Many of our stations would be willing to surrender their 
analog spectrum early if three conditions existed: bold post-
transitional carriage of our signals on cable and satellite, 
the availability of low-cost converter boxes, and, you guessed 
it, a new stream of funding derived from the eventual auction 
of public television spectrum. In this case, NHPTV, for 
instance, might be capable of returning our analog spectrum by 
2006, well in advance of the 2009 hard date proposed by the 
FCC.
    Allowing public television to benefit from at least some of 
the proceeds raised by auctioning that spectrum is a win-win 
for the public. First, as Committee Members like Senator Sununu 
and Senator Ensign have noted, the economic activity generated 
by new uses of the spectrum would far exceed the actual dollar 
value of the spectrum itself. Second, witnesses at the July 9th 
hearing agreed that the early clearing of only part of the 
broadcast band--for example, the 21 percent that is held by the 
PTV stations--would harness market forces to accelerate the DTV 
transition. Senator Hollings has some thoughtful ideas in this 
regard, and we appreciate the time and attention that he has 
given this issue in the final year of his great public service 
career.
    In sum, Mr. Chairman, we respectfully ask that the 
Committee approve the reauthorization of the Public 
Broadcasting Act to ensure public television's near-term 
future, and to move immediately to take advantage of the 
historic opportunities created by DTV transition as a means of 
ensuring public television will be an effective institution for 
public service for generations to come.
    Thank you for this opportunity, and I'd look forward to 
your questions.
    [The prepared statement of Mr. Frid follows:]

   Prepared Statement of Peter A. Frid, CEO and General Manager, New 
  Hampshire Public Television on Behalf of the Association of Public 
                          Television Stations
    Thank you Mr. Chairman. I am Peter Frid, Chief Executive Officer 
and General Manager of New Hampshire Public Television. It is an honor 
to have the opportunity to testify today on behalf of the Association 
of Public Television Stations, which represents 150 local stations 
across America.
    Mr. Chairman, public television stations are as distinct as the 
communities they serve. Prior to joining NHPTV in 1996, I had the 
opportunity to manage public TV and radio stations in Corpus Christi, 
Texas; Juneau, Alaska; and Long Island, New York. What these and other 
stations have in common is their mission: striving to serve the 
individual needs of their communities. While both technology and the 
media landscape have changed greatly since passage of the 1967 Public 
Broadcasting Act, the mission of public television stations remains 
constant: to serve the local public interest through education, culture 
and citizenship.
Public Television's Commitment to Localism
    I emphasize the word ``local'' because, simply put, public 
television stations' localism is without rival today. Each station is 
engaged in meeting its local community needs for relevant programming, 
education and outreach. Licensed to the University of New Hampshire, 
NHPTV, along with the other 175 individual public television licensees 
nationwide, is and will remain locally controlled, operated, and 
programmed.
    As the Committee takes the first step toward reauthorizing the 
Public Broadcasting Act, we hope that you will recognize the enormous 
significance and value of having at least one locally controlled 
television station in every media market.
    Mr. Chairman, on behalf of public television stations, let me 
express our support for the bipartisan approach that you and Ranking 
Member Hollings have taken to reauthorizing the Public Broadcasting 
Act. It strikes the right balance between reform and not trying to fix 
what isn't broken. If enacted, it will ensure the uniqueness of public 
television's mission of public service to our communities.
How Public Television Serves Communities
    It is fair to ask if public television is necessary in today's 500-
channel television world; if the missions of the Public Broadcasting 
Act of 1967 are still relevant. The answer is that this institution is 
more necessary now than in 1967 for many reasons, but let me briefly 
offer three:

        Education Services. NHPTV's ``Knowledge Network'' provides 
        education services at all levels, from early childhood learning 
        to distance learning to teacher professional development. One 
        example of our innovative approach to promoting literacy in the 
        community is a program we established with the New Hampshire 
        Department of Corrections to reconnect prisoners with their 
        children through reading. Project Story Time videotapes 
        prisoners reading an age-appropriate book, then the tape and 
        book are shared with the child and custodial family to 
        encourage family literacy and bonding.

        Public television's unique children's programming service, 
        known as Ready To Learn, has no parallel in commercial 
        children's television. Ready To Learn combines the high-quality 
        children's programming and curriculum materials provided by PBS 
        with the local outreach workshops offered by local stations and 
        achieves measurable improvement in early childhood learning. 
        For our state, this is one of the most successful educational 
        outreach efforts we've ever undertaken, far exceeding what we 
        originally envisioned.

        NHPTV is also proud to offer online teacher training through 
        the PBS TeacherLine service, which is aligned to individual 
        state curriculum standards. Both of these programs were 
        authorized by No Child Left Behind and together receive about 
        $47 million in grants from the Department of Education. We have 
        leveraged those grants with local foundation and corporate 
        funds that have allowed us to reach every corner of New 
        Hampshire through broadcast, the Web, and face-to-face 
        community workshops. However, these and other educational 
        services would not exist without the delivery system of 
        independent local stations backed by our national programming 
        service, PBS.

        Public Affairs Coverage. Mr. Chairman, you were a frequent 
        visitor to our state in 2000 and of course are familiar with 
        the presidential primary debates that New Hampshire Public 
        Television sponsored. But candidate access to our airwaves is 
        not limited to high-profile races; we are equally proud of the 
        debates, candidate forums and ongoing public affairs coverage 
        we provide for local races throughout each election year.

        For instance, in 2002, we broadcast seven separate Federal or 
        statewide candidate debates and will do the same this year. And 
        our nightly public affairs program, NH Outlook, offers 
        substantial direct access for, and coverage of, political 
        candidates at all levels. In 2002 alone, we provided in-depth 
        profiles of more than a dozen mainstream and third-party 
        candidates and conducted many more in-studio interviews. We are 
        proud of our ability to offer candidates free, unfiltered 
        access to the public.

        Universal Service. Third, the long-established national policy 
        of truly free, universal service dates to the Communications 
        Act of 1934 and it is literally a responsibility for public 
        television. Earlier, I mentioned today's 500-channel world. But 
        it is important to recall that this world exists only for those 
        households that pay for cable and satellite subscription 
        services.

        At least one in five Americans are not part of that world and 
        many more households have over-the-air television sets that are 
        not connected to such a service. Some of those Americans are 
        economically disadvantaged. Some are in rural areas or on 
        reservations and literally don't have the choice of 
        subscription services. Many of them truly have the greatest 
        need for the services we provide. In any case, connecting these 
        Americans to our services is reason enough for the Congress to 
        provide support for public television.

    NHPTV's ability to serve both the urban and the very rural parts of 
New Hampshire is critical to bringing our state together. Steve Barba 
of the Balsams in Dixville Notch often mentions that our station 
affords him access to New Hampshire-based programming by connecting him 
to the state. Through our programs, NHPTV affords the residents of the 
Great North Woods a share of voice.
CPB Funding and Localism
    Your bill, Mr. Chairman, would continue the critical funding for 
the Corporation for Public Broadcasting (CPB) that is the lifeblood of 
our stations. Nearly all of that funding is distributed directly to 
stations by formula in the form of Community Service Grants. This 
funding represents on average 15 percent of most stations' budgets, and 
is critical to our ability to fulfill the missions I described.
    In addition to the community service grants, CPB has also provided 
critical funding for special projects that have helped us to meet 
special local needs. For instance, a CPB-funded grant from the National 
Center for Outreach allowed NHPTV to initiate ``The Partnership for a 
Safe New Hampshire'' project. The station brought together the NH 
Library Association, Volunteer NH, and UNH Cooperative Extension to 
hold eight forums to help geographically diverse communities address 
emergency management and preparedness for homeland security.
    In short, Mr. Chairman, the annual appropriation that Congress 
provides to CPB has a real and measurable impact on ensuring that local 
stations can fulfill the twin objectives of localism and public 
service. We appreciate that your draft reauthorization bill does not 
tear down this proven system.
    As our stations raise most of their budgets in the community, they 
must be responsive to local needs. We believe it follows that expanding 
the input of the local stations in governing CPB would improve the 
responsiveness of the system to fulfilling localism objectives. Current 
law designates two of the nine seats on the CPB Board to be filled by 
representatives of local public radio and television stations. Mr. 
Chairman, we propose that this number be increased to four of the nine 
seats, allowing more system representation to be introduced to the 
Board gradually, as existing Board terms expire. Reforming the 
governance of CPB in this manner creates more accountability for the 
local stations to ensure that funding is used according to the 
objectives of Congress. It also increases CPB's accountability to the 
communities the stations serve. We hope your final bill includes this 
provision.
The Digital Transition
    Mr. Chairman, if one accepts that public television's mission has 
grown since 1967, we are fortunate today to have a 21st century 
delivery system to meet it. I am speaking of course of digital 
television, which has geometrically expanded our capacity to meet our 
mission. Since the DTV transition began, our system has raised more 
than $1 billion to make the conversion. As of today, 264 of the 
country's 357 PTV stations are transmitting a digital signal in markets 
that include more than 87 percent of households, and we are optimistic 
that most of the remainder will be on the air by the end of this year.
    Our true challenge now is to move from simply delivering a digital 
signal, to creating and delivering actual digital services. For 
instance, our stations have pledged to devote one-quarter of their 
digital bandwidth to educational programming. Also, many of our 
stations are creating public service datacasting services such as 
offering a portion of their bandwidth for local emergency alert 
communications.
    It is no exaggeration to say that our local stations view digital 
as their greatest opportunity ever to serve the public and we are 
grateful that your draft reauthorization bill would help us to fulfill 
that promise. Allow me to highlight key portions of the bill in this 
regard:

        First, the draft bill reauthorizes two key programs, CPB's 
        digital fund and the Department of Commerce's Public 
        Telecommunications Facilities Program. Why two programs? The 
        CPB digital program is a temporary one aimed at putting 
        stations on the air in digital, while PTFP, which predates DTV 
        by 35 years, is an ongoing competitive matching grant program 
        that funds infrastructure. A 2002 PTFP grant paid for the 
        digital conversion of our transmitter and tower in Keene, 
        southwestern New Hampshire. The PTFP program is a good 
        investment for the Federal Government in the truest sense of 
        the word for it allows us to leverage revenue from local 
        sources and we appreciate your support for it.

        Second, the bill expands the definition of what may be funded 
        to include datacasting services. Such services take digital 
        television beyond the television set, for instance, allowing a 
        station to directly transmit video curriculum to schools or to 
        provide a platform for emergency communications. At NHPTV we 
        see enormous potential to enhance our work with K-12, higher 
        education, and the New Hampshire Office of Emergency Management 
        through datacasting.

        Third, the bill authorizes funding to build a new 
        interconnection system that will link PTV stations with each 
        other and the national programming service. Interconnection was 
        at the heart of the original Public Broadcasting Act. While it 
        is unseen by viewers it is literally the backbone of public 
        television, as it serves as the national programming transport 
        system. The current system must be replaced soon as satellite 
        contracts are expiring. Congress appropriated a down payment 
        last year, and this bill provides the authorization to finish 
        the job--and, I might add, replace radio's separate 
        interconnection system when the time comes.

    Allow me to offer one additional thought about the DTV transition. 
The law requires public stations, along with commercial stations, to 
return their analog spectrum to the government when the DTV transition 
is complete. As you know, some experts estimate that, absent policy 
changes, the transition could drag on for more than a decade. In fact, 
a 2002 NAB study pegged the so-called ``natural'' transition date at 
2021.
    Mr. Chairman, when presented with the opportunities that digital 
broadcast could offer in our ability to enhance our service to our 
communities, public television embraced this project. In New Hampshire, 
we have been extremely fortunate that our University and the New 
Hampshire State Legislature embraced the potential of digital as well. 
Recently, the University System of New Hampshire Chancellor, Stephen 
Reno, stated before the Governor's Capital Project Hearing that the 
continued funding of NHPTV's digital conversion is critical to the 
University's plan to have the station play a key role in delivering 
distance learning to our state.
    But, with this asset in place, we are still challenged by the 
necessity of maintaining our analog transmitters as well. This will 
contribute significantly to the complexities of operations, additional 
electrical costs and, if the deadline to shutting off our analog signal 
is significantly delayed, the prospect of having to replace at least 
one if not two of our analog transmitters. Nationwide, our stations 
currently spend an estimated $36 million per year to run two redundant 
transmitters, and about $20 million per year replacing analog 
equipment. Those costs together exceed the $50 million Congress 
appropriated last year to CPB for digital funding. We look forward to 
the day when this money can be invested in the delivery of valued 
services to our state and not the re-investment in old and costly 
technology.
    As our association testified before this committee on June 9, many 
of our stations would be willing to voluntarily surrender their analog 
spectrum early if three conditions existed: full post-transitional 
carriage of our signals on cable and satellite; the availability of 
low-cost converter boxes; and--you guessed it--a new stream of funding 
derived from the eventual auction of PTV stations' spectrum. In this 
case, NHPTV, for instance, might be capable of returning our analog 
spectrum by 2006, well before the January 1, 2009 ``hard date'' 
proposed by the FCC Media Bureau.
    Public television stations occupy 21 percent of the broadcast 
spectrum and we are eager to work with this committee to develop a plan 
for returning it to the government as soon as practicable. Allowing 
public television to benefit from at least some of the proceeds raised 
by auctioning that spectrum is a win-win for the public.
    First, as Committee members like Senator Sununu and Senator Ensign 
have noted, the economic activity that would be generated by freeing up 
this spectrum for other uses would be an enormous boost to the economy. 
Most experts believe that activity would far exceed the actual dollar 
value of the spectrum itself. Second, a consensus of witnesses at the 
June 9 hearing agreed that an early clearing of only part of the 
broadcast band--for instance, the 21 percent of it held by PTV 
stations--would harness market forces to accelerate the DTV transition.
    Our association has proposed that at least a portion of the revenue 
derived from auctioning PTV's spectrum be used to create a fund 
dedicated to digital educational services, but there are many options 
worthy of consideration. The distinguished Ranking Member, Senator 
Hollings, has some thoughtful ideas in this regard and we appreciate 
the time and attention that he has given this issue in the final year 
of his great public service career.
    In sum, Mr. Chairman, we respectfully ask that the Committee 
approve reauthorization of the Public Broadcasting Act to ensure public 
television's near-term future, and that it move immediately to take 
advantage of the historic opportunity created by the DTV transition as 
a means to ensuring public television will be an effective institution 
of public service for generations to come.
    Thank you and I look forward to your questions.

    The Chairman. Thank you very much.
    There have been complaints about public broadcasting having 
a liberal bias. In a February 2004 hearing before the House 
Energy and Commerce Committee, Congressman Regula reminded 
public broadcasters that, quote, ``McDonald's made a fortune 
catering to everyone's taste.'' I also note that the--PBS 
recently added two conservative commentators to its national 
programming lineup.
    Ms. Cox, do you believe that the stations should attempt to 
cater to everyone's tastes?
    Ms. Cox. Absolutely, Senator McCain.
    The Chairman. Mr. Matthusen?
    Mr. Matthusen. To the extent that we can, we try to 
represent all points of view.
    The Chairman. Mr. Frid?
    Mr. Frid. Absolutely. I think the stations are very 
sensitive to the need for objectivity and balance. Our local 
programming, for example, really works to offer diverging 
viewpoints. We believe, as holder of the license and the trust 
of the public, that our efforts to achieve objectivity and 
balance is an important thing for us to consider.
    The Chairman. Ms. Vicente-Taylor?
    Ms. Taylor. Absolutely. With the Indian Country News 
Bureau, we have some unique situations. As you may recall, the 
Hopi and Navajo, for example, have had years of tension between 
them. And so, balance and fairness and objectivity in covering 
those stories are extremely important.
    Also, the Indian Country News Bureau covers stories about 
Hopi people themselves, and we live and work with these people 
in our communities, and so we're keenly aware that we need to 
be balanced and objective in our stories there, as well.
    The Chairman. Do you believe that--Ms. Vicente-Taylor, do 
you believe that CPB's funding formula adequately takes into 
account the special needs of stations like KUYI that are 
located on reservations, most low-income areas of America, and 
have difficulty raising money from listeners?
    Ms. Taylor. I think there can be some improvement in the 
way funding is channeled into Native American public radio 
stations. I don't think the model of mainstream public radio is 
completely compatible with how funds should be raised. For 
Hopi, for example, our unemployment is so high--sometimes as 
high as 55 percent--and rather than having pledge drives to get 
money from families that are worried about putting a roof on 
their heads or feeding their children or clothing their 
children to give money to KUYI, I would rather try to look at 
other models, and we're trying to figure those things out.
    The Chairman. Ms. Cox, I hope you will try to help figure 
those out. Public broadcasting on Native American reservations 
have difficulties because of the nature of the degree of 
poverty that exists on those reservations, and I hope you 
will--and the board--look into those special needs situations.
    Ms. Cox. Yes, sir. As a matter of fact, in the fall, we're 
beginning a new consultation, on both the radio and television 
side, to consider the best use of all of our funds, and, in 
particular, the CSG funds, the community service grants, that 
go to the stations. As you're well aware, we service a variety 
of stations, from the stations just described to some of the 
largest and strongest stations in the system, so it's a careful 
balancing act, but we do have that very much in mind.
    The Chairman. Mr. Burns, you have consistently chosen to 
display your documentaries on public television, and not 
provide them for bidding in the open marketplace that now 
includes History Channel, Discovery Channel, A&E, and others. 
Why? And wouldn't this free you from seeking corporate 
sponsors?
    Mr. Burns. It probably would, in the long term, Mr. 
Chairman, but I think my remarks about attention are extremely 
important. We don't go to the cinema or to the ballet or to the 
symphony and expect, every few minutes, to be interrupted. And 
so, too, would I like my work in an uninterrupted form. There 
are other venues where that could take place--notably, pay 
cable stations.
    The Chairman. Financially, it would have benefited you 
significantly.
    Mr. Burns. It might have. But I think that we have to 
measure riches in lots of different ways. I stand before you 
proudly telling you that if there's a film that you don't like 
of mine, it's all my fault. And I have colleagues in all those 
other networks that say, ``Well, that film didn't work out 
because they took it away from me and re-edited,'' or, ``They 
made me use this person,'' or, ``They made me use that 
person.'' I stand before you, sort of, the proud citizen of 
public television, and say that if you don't like one of my 
films, it's all my fault. And I'm pleased to be in a network in 
which that's the case.
    The Chairman. Ms. Cox, in April 2004, the GAO found that 
CPB's funding and distribution of grants under the Television 
Future Fund was not within the statutory authority under which 
the Corporation operates. Specifically, the GAO found that 
funds Congress designated for the distribution to the public 
television licensees should not be siphoned off by CPB for 
systemwide projects. Shortly thereafter, CPB announced it would 
no longer use such station monies for the Television Future 
Fund.
    The GAO report only addressed the Television Future Fund. 
Does the Corporation intend to eliminate or restructure the 
Radio Future Fund or the Small Station Future Fund to comply 
with its statutory authority, or do you believe the statutory 
authority should be changed?
    Ms. Cox. Senator McCain, as noted in our response to the 
GAO report, we do disagree with the legal interpretation of the 
statute. We had two different opinions that confirmed our 
interpretation of the statute.
    Nonetheless, with respect to our understanding of where the 
station's financial situation is, on the television side, we 
have, I believe, resolved any issue with respect to that. We 
are returning station finances--money back to the CSG pool, and 
we will not be contributing any additional money to the 
Television Future Fund in the 2005 Fiscal Year.
    On the radio side, I think that there are similar 
considerations to be had. Again, we're of the view that the 
stations have in mind the best ways to spend their money. So in 
2005 Fiscal Year, we will not be contributing to the Radio 
Future Fund. But we do have in mind the fact that, on the radio 
side, the stations do enjoy the ability to aggregate funds 
toward those kind of projects that can't be handled at the 
local level. So we'll be engaged in consultation with them over 
the year to determine whether they wish to--desire to have 
that, in which case I think it maybe appropriate to seek 
statutory clarification, in terms of our ability to accommodate 
that.
    The Chairman. Why did CPB have almost $24 million sitting 
in its digital fund, unobligated, at the end of calendar year 
2003, according to the GAO? And what are you going to do with 
these monies?
    Ms. Cox. That situation has also, I think, been addressed. 
As the GAO report fairly accurately reported, the digital funds 
came to us for the distribution of equipment, and that was a 
new situation for us. We had to determine different guidelines 
and a different method of getting that money out. We are past 
those hurdles. I think that we have addressed--provided more 
resources to the speedy expenditure of those funds, working 
with the stations. So we are--again, have put more resources 
toward that. We have had the appropriate consultations, and we 
will continue to do whatever is in our power to get that money 
out the door as fast as possible.
    The Chairman. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I ask consent that I can have 
my statement entered in the record, and just a couple of----
    The Chairman. Without objection.
    Senator Nelson.--quick questions.
    I passed one of my colleagues in the hall coming here, and 
he was just singing the praises, Mr. Burns, of your opening 
statement, and I'm going to look forward to reading it in the 
testimony of this Committee.
    I'm curious, how would you address critics who say that PBS 
is too liberal?
    Mr. Burns. Well, I think that, quite often, public 
television has been a fairly convenient way to, sort of, 
project other arguments into the fray. I've noticed, in the 
course of a lifetime of watching public television, that it has 
been a forum where lots of competing voices come, and there's a 
wonderful fission that takes place from the collision of free 
electrons. Remember Buckley's Firing Line has been on--was on 
for more than 30 years, and hardly a liberal outpost. There 
have been, I think, instances of individuals expressing a 
liberal agenda, but I think it has been more than balanced by 
other programming throughout.
    And, of course, in my own work, one can't perform the kind 
of historical triangulation that's required to make good 
history without being balanced and fair to all sides. That's 
exactly what history is about, the sort of accounting that 
takes place in that work.
    I'm proud to be in a network that is tolerant enough to 
welcome lots of different opposing voices, and I don't think it 
has a particular bias.
    Senator Nelson. I'm concerned about the political discourse 
in this country. We seem to have gotten to the point that it's 
a lack of toleration for views that are opposite of our own, 
and we castigate each other, and we use labels as ``liberal'' 
or ``ultra-liberal'' or ``ultra- conservative'' if someone has 
a view different than our own. I just don't want you all to 
fall in that trap as we see that happening with other outlets 
of information.
    Mr. Frid, you stated that public TV broadcasters would be 
willing to voluntarily surrender their analog spectrum early if 
low-cost digital-to-analog converter boxes were available. What 
do you see as the role for Congress in this? Should Congress, 
for example, subsidize converter boxes?
    Mr. Frid. I know that that's an idea that's been discussed. 
I think one of the challenges that we will have is, once one 
gets beyond those that have satellite and cable, there will be 
a group of individuals that may not have the financial 
resources to purchase converter boxes. And I think it's 
certainly an idea that's worthy of exploration.
    Senator Nelson. Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, thank you for holding this hearing regarding the 
reauthorization of the Corporation for Public Broadcasting, known as 
CPB.
    I am a big fan of the programming and services provided by public 
television and radio. Hardly a week goes by when I haven't tuned in to 
a PBS or NPR program. In this age of increased media consolidation and 
commercialization of news, PBS and NPR greatly assist in informing and 
educating Americans about national and local issues.
    Since its creation in 1965, CPB has played the central role in 
overseeing the development of public broadcasting. I think that most 
people would agree that CPB has done an excellent job over the years in 
administering the Federal funds that Congress allocates. CPB has 
carried out its mission largely immune from political pressures and has 
acted in the public interest.
    As CPB has recognized, broadcasting is now at a crossroads. 
Broadcasters are in the midst of a multiyear digital TV transition. At 
the same time, broadcasters are competing with cable television, 
satellite, and the Internet to deliver programming. Now, more than 
ever, Congress should ensure that non-commercial, locally oriented 
public broadcasting is nurtured.
    Without CPB, public broadcasting and the principle of localism 
would suffer. I look forward to hearing today from the various 
witnesses about how Congress can help promote vibrant and effective 
public broadcasting. If there are specific problem areas that Congress 
should address in the context of CPB's reauthorization, I would like to 
hear about those issues as well.
    I thank the Chair.

    The Chairman. Senator Sununu?
    Senator Sununu. Thank you very much, Mr. Chairman.
    Mr. Burns, I'd offer up, maybe for future use, when someone 
like John McCain asks you why you do what you do and the way 
you do it, you could make a lot more money elsewhere, just 
point out to John McCain, ``You could make a helluva lot more 
money if you quit the Senate.''
    [Laughter.]
    Senator Sununu. But it's not necessarily a good idea.
    [Laughter.]
    The Chairman. But a popular move among some.
    [Laughter.]
    Senator Sununu. Could you talk a little bit about the 
process for funding projects--CPB provides money to help fund 
content, fund programming--and then the process for getting 
your work distributed? Does that work well? Are there any 
changes or concerns that you have or would recommend for either 
the funding of content, or is there something that could be 
done to make the process for distribution work better to 
encourage innovation or independence or to help new producers 
of content?
    Mr. Burns. Senator, there's always room for improvement, 
and I think we're constantly tinkering, as we are in this 
republic, and will continue to tinker, I hope, for as long as 
we're around.
    The process is--I think most of my colleagues and I would 
say we want to have that ten-picture deal that the commercial 
networks would provide for us so that this rigorous fundraising 
thing would disappear. But, at the same time, that rigorous 
fundraising process makes us more honest, and stronger. Quite 
typically, we'll get an idea to produce a film, we'll discuss 
it with various colleagues who would be involved in its 
production, we would produce a proposal, of not insignificant 
length, that would be submitted to the Corporation for Public 
Broadcasting. They have a rigorous proposal process. It's 
vetted by other media professionals and also by experts in the 
particular field. Sometimes we also are submitting a grant to 
the National Endowment for the Humanities, which requires an 
even greater and more rigorous proposal process. We get some 
early seed money, and then the rest of the process is a kind of 
patchwork quilt of funding, going out to private foundations, 
going to PBS itself, going to individual state tourism--I wish 
that Governor Allen was here. After the Civil War series, 
tourism in the State of Virginia went up by tens of millions of 
dollars, and the state actually called me and asked me if there 
was anything else I was doing on Virginia; they'd like to 
contribute.
    [Laughter.]
    Mr. Burns. And you could have knocked me over with a 
feather, because no one, in my entire 25 years in public 
television, has ever called me up and said, ``Do you want some 
money?''
    [Laughter.]
    Mr. Burns. And the State of Virginia contributed to a film 
I was working on, and completed the funding for a film I was 
working, on Thomas Jefferson.
    We go out, we moan and complain about how difficult it is 
to raise money. There are great filmmakers out there, and great 
ideas, and not enough money to go around, so we're excited 
about the prospects of a generous reauthorization. But we like 
the process, in the end, because of how rigorous it is, and 
gets--we have to get our facts right, in the case of history--
and get it down.
    And then I've been privileged to work with PBS Video, which 
has been distributing my product for most of the time my films 
have been available. And that has a dual function; not only are 
they the best, I believe, distributors of this kind of 
educational material, they know the territory better than 
anybody else, and get it out to a wide number of people, but 
the money they earn, in turn, gets folded back into production. 
And that's a terrifically symbiotic kind of thing that goes on, 
that I know that money that's being earned might eventually end 
up back in a production budget for a subsequent film down the 
line.
    We've got a whole sequence of things we're looking forward 
to over the next several years--the history of the second World 
War, history of our national parks--we're finishing a film on 
the boxer Jack Johnson--all of which have required that same 
sort of teamwork and cooperation to get done. And as, sort of, 
messy as it is--and I think that this institution knows about 
messy processes--you wouldn't really want to have it any other 
way, because the alternative then tends to focus the power into 
just a few hands, and what I like about this is that there are 
a lot of voices that contribute to our process all the way 
through.
    Senator Sununu. Within the production community, is there 
concern that that kind of a system places people who aren't 
quite as well known as you are at a disadvantage--new entrants, 
new producers?
    Mr. Burns. I think that funding constraints probably do 
that more than the process itself, because if there was more 
funding--but I broke in, I looked--when I started out, I looked 
like I was 12 years old, and my first film was on----
    Senator Sununu. So if you could do it, anybody could do it, 
right?
    Mr. Burns.--on the Brooklyn Bridge, and a lot of people 
outside of public television were saying, ``No,'' as I was 
trying to sell them the Brooklyn Bridge.
    [Laughter.]
    Senator Sununu. That was very good.
    Ms. Cox, anything you'd like to add about the funding 
structure for content, or the ease with which good content is 
distributed across the spectrum of participants in the 
Corporation?
    Ms. Cox. Just to follow up on the last point, I think that 
the--our ability to attract new, younger, and additional voices 
to the public broadcasting world is extremely important. It's 
one of the things that I'm going to be focused on, as well.
    Two examples. One is--and I think that, Ken, you were part 
of what call the Producers Academy, which is an effort to bring 
in younger, but with some experience, producers into the public 
broadcasting fold. We want to have people understand how the 
system works so that we can bring them along and be able to use 
their works as part of all the programming that we do.
    Another example is this Crossroads Initiative that I 
mentioned in my testimony. That was really an effort to--it was 
an RFP. We took this out to--around the country in four or five 
settings to explain what this was about, with a real desire to 
bring in additional voices. And, as I said, we got 450 
applications submitted for this kind of funding; 360 new 
applicants. So I think it's--we do very much have that in mind, 
and are trying to find ways to encourage additional voices 
coming in.
    Senator Sununu. Thank you very much.
    The Chairman. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    I ask consent that my full statement be inserted into the 
record as if read.
    The Chairman. Without objection.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman:

    Thank you for holding the first hearing in ten years on 
reauthorizing the Corporation for Public Broadcasting (CPB).
    TV has been called a ``medium'' because it's neither rare nor well 
done! Well, public television is the exception. And public radio is 
equally outstanding. I'm not sure if it's possible to estimate the 
beneficial impact public TV and radio have had on informing, educating, 
and entertaining America.
    I believe that CPB, National Public Radio (NPR), and the Public 
Broadcasting Service (PBS) have been extremely successful in fulfilling 
their mission and providing the highest quality of broadcast journalism 
and services to all Americans.
    NPR News, for example, has seen rapid growth in its audience--from 
11.5 million listeners in 1994 to 22 million in 2004.
    PBS is the leading provider of educational materials for K-to-12 
teachers and it offers a broad array of educational services for adult 
learners. Approximately 87 million people watch PBS each week. That's 
more than any cable network audience.
    I have to compliment the Nation's public TV and radio stations for 
providing innovative educational and civic programming that enriches 
the communities they serve.
    In addition to providing the highest quality of programming in the 
business, public TV stations are creating new ways to serve the public 
interest, without Congressional pressure.
    In my home state of New Jersey, for example, WNJN--the New Jersey 
Network--is already using its digital signal to transmit job training 
data to a test site in Trenton.
    ``Workplace Essential Skills,'' an historic partnership with the 
New Jersey Department of Labor, is helping the unemployed get the basic 
skills they need to compete for jobs.
    New Jersey Network has also been involved with the State Office of 
Emergency Management to provide secure links between emergency 
authorities and nuclear power plant operators.
    I commend public broadcast TV stations for offering these and other 
valuable services as they make the transition from analog to digital 
signals.
    I look forward to hearing the testimony of our witnesses.
    Thank you, Mr. Chairman.

    Senator Lautenberg. And I'm sorry that I'm a little late 
here. I would have preferred to be here than where I was, on 
the floor, engaged in combat without combat pay.
    [Laughter.]
    Senator Lautenberg. I'm trying to fix that in an amendment 
I have for those who are serving in Iraq.
    [Laughter.]
    Senator Lautenberg. I come out of the computer business. 
The problem is that it was so long ago that maybe it's a 
different industry. When I visited my old company, after having 
been here a few years--we had giant computers wherever we were 
located. The company is called ADP. It's a very big company, 
and I started it with two other fellows--and I saw the room was 
half empty, and I was in shock. I said, ``What's happened to--
have we lost so much business?'' Anyway, we've gotten better at 
it. So the things that I may ask may have little relationship 
to reality.
    But I thought about--a long time--about how we might 
educate our children differently. And now I'm talking about the 
mechanical means. I'm not talking about the classroom subject. 
We know that we have places, even in crowded little New Jersey, 
where school buses ply the streets every day, and the kids are 
brought to the classrooms, some of them fairly far distant from 
a regional high school or something like that. And I know that, 
in states like New Hampshire and others, like Arizona, have 
that problem, of bringing--going to fetch these kids and so 
forth. And I wonder whether there has been any thought given to 
the possibility that the classroom--and this is through PBS 
eyes--the classroom might move to the electronic delivery? I 
think it must, one day.
    And has there been any review of the possibilities that 
public broadcasting might be part of a network that says, ``OK, 
we're going to be giving you instruction over these 4 days a 
week for your classroom work, and then on Friday we'll come and 
have a professional visit you in the neighborhood--and 
others''? Has there been anything done in--to your knowledge, 
to try to initiate these kinds of specific learning programs 
through a media broadcast?
    Ms. Cox. Yes. And I think that Mr. Frid probably will have 
some additional comments to bring to bear on this question. 
But, as was mentioned earlier, public broadcasting is one of 
their best-kept secrets of how much work that they are doing in 
the educational world. Nearly two-thirds of the licensees are 
associated with education licensees or work closely with their 
schools in their communities. So the ability to use this--new 
technologies in ways that benefit both the teachers and the 
students is very much a part of the conversations that we're 
having.
    In fact, there has been some tremendous advances within the 
system already, utilizing aggregated material geared toward 
state standards that are available on a server or online or 
broadcast. So there's--we are trying to explore the various 
financial models to support that those kind of activities--
again, going to the level of support that would allow us to 
really explore what we can do with this digital technology--but 
the use of it for purposes of teacher training and school-based 
training is absolutely front and center as part of those 
conversations.
    And I think, Peter, you might have some other things to 
say.
    Mr. Frid. Yes, Senator, I think, not only for K-12, but 
also for higher education. I know that ours certainly--New 
Hampshire Public Television is looking at a number of different 
venues. One is, we are working with a number of local school 
districts to create the Granite State Distance Learning 
Network, which is a Internet-connected learning network that 
provides the ability for different schools to dial in and use a 
common instructor, those kind of things. We're looking at 
access for students, whether they're at home or in the 
classroom, utilizing video-streaming technology, where, again, 
they could access the things that Kathleen was talking about, 
in terms of not only courses, but other types of short program 
segments.
    I think one of the things that really I'm excited about, 
and I think has great potential, is the opportunity for 
datacasting, and that is that by utilizing our capability of 
digital to be able to take program segments, instructional 
materials, and feed them directly either into the classroom, 
or, for that matter, right into the home--I know that our 
Knowledge Network staff is working with a number of 
homeschoolers in the state--actually, in the region--to provide 
that kind of access. So there are some great opportunities here 
that are ahead of us.
    Senator Lautenberg. Does that kind of research or inquiry 
come out of the operating budget for PBS? The kind of review--
--
    Ms. Cox. There are contributions. There's research that 
goes on around the system. CPB is engaged in some research; the 
stations, as well. I know PBS has had an education agenda, as 
well. So it's really--there are pockets of significant research 
going on around the system.
    Senator Lautenberg. Ms. Cox, how much of the budgetary--of 
your revenues come from contributions and campaigns that you 
organize, as compared to the government contribution?
    Ms. Cox. The Corporation for Public Broadcasting gets its 
funding from the Federal Government. So our funding is really 
strictly just the appropriations.
    Senator Lautenberg. I see. And when we get to NPR----
    Ms. Cox. The system, as a whole, the Federal contribution 
is roughly--it varies between 12 and 15 percent of the overall 
budget.
    Senator Lautenberg. So the rest of it is raised?
    Ms. Cox. There is--almost 50 percent comes from members. 
There is money that--I don't--I can't recall the specific 
breakdown right now, but in terms of underwriting support from 
foundations, and corporate support. So it's really back to the 
idea that this really is a partnership of the Federal 
Government. We also get significant support from state and 
local entities, as well, all of which seem to be under some 
downward pressure these days. Again, we're very thankful for 
the continued steady support of the Federal dollar; again, 
signifying how important that is as the bedrock of this 
equation. So----
    Senator Lautenberg. Mr. Chairman, the thing that it says to 
me is that it confirms the public interest in these divisions 
of the public broadcast, and it says that, ``We like what you 
do.'' And I know my alarm clock goes off every morning, and 
there's some mellifluous tone that comes over and tells me what 
time it is, but it's better than somebody shrieking at me----
    [Laughter.]
    Senator Lautenberg.--from some commercial television.
    If I may, Mr. Chairman, just one other thing. It's to Mr. 
Burns. I don't know--I don't remember, in detail, your baseball 
documentary, but was it prominently acknowledged that baseball 
was invented in New Jersey?
    [Laughter.]
    Mr. Burns. Yes, I--Senator, I'd be happy to send you the 
first episode of that series, called ``The First Inning,'' that 
takes great pains to debunk the myth that it was born in 
Cooperstown, New York, by Abner Doubleday, an illustrious Civil 
War general, who apparently had nothing to do with baseball, 
but was, in fact, born on the Elysian Fields, in Hoboken, New 
Jersey.
    Senator Lautenberg. Thank you. Do you remember the name of 
the team?
    Mr. Burns. Well, there was--the New York Nine was playing 
another group of clerks from Brooklyn, and they were seeking 
the refuge of the Garden State from the teeming metropolis of 
New York, and adapted rules of rounders and cricket into a game 
that we now recognize as baseball.
    Senator Lautenberg. You've made my day.
    [Laughter.]
    Senator Lautenberg. Mr. Burns, have you had a chance to 
look at the just-concluded 200th anniversary of the duel on the 
cliffs of Weehawken, New Jersey? Quite a story, the Vice 
President killed his opponent, was indicted, but never charged. 
Things are same.
    [Laughter.]
    Mr. Burns. Senator, with regard--I have an anecdote that 
doesn't address specifically your first question, but I get a 
great deal of letters from teachers all the time that are 
pleased that this material--all the films--are involved in 
their curricula. And a very interesting several letters have 
appeared from various parts of the country saying that some 
school districts have remade their American history curriculum 
to teach it using the baseball series. They saw it as a kind of 
Trojan horse that not only communicated mathematics and 
statistics, but the whole arc of American history and women's 
issues and racial issues and issues of labor and management----
    Senator Lautenberg. Terrific.
    Mr. Burns.--all of that. And we're excited by the fact--I 
think, in public television--that, unlike the rest of broadcast 
and cable, which is like skywriting, which disappears in the 
first zephyr, that we're committed, as are many of our 
underwriters, to stick around with educational outreach. So I 
think some of the questions that you have will be fulfilled in 
the years to come.
    Senator Lautenberg. Mr. Chairman, one more impertinent 
question.
    The Chairman. We're leaving the issue of killing people in 
New Jersey?
    [Laughter.]
    Senator Lautenberg. I never spar with this Chairman when 
he's sitting there.
    But, no, the question about--you do such wonderful work, 
and we're all indebted to you, to all of you for the work that 
you do, because the volunteer side of America is a great side 
of our society--but I would ask you, the impertinent question 
is, do you get paid by the Corporation for Public Broadcasting? 
And if so, couldn't you sell this product for lots more money, 
assuming that you do get paid for the work that you do? I hope 
you do. You deserve it.
    Mr. Burns. I do, Senator. It's not commensurate with 
professionals in the rest of television. But we write a budget 
that includes salaries for the people that work on it, that are 
modest. Afterwards, because of our stake in the ownership, we 
can receive money through the sale of videotapes and----
    Senator Lautenberg. I see.
    Mr. Burns.--CDs and things like that. Companion books are 
often a helpful way to do it. But it should be noted that, in 
the case of the grants from the Corporation for Public 
Broadcasting or the National Endowment for the Humanities, off 
the top, they are paid back in a very simple and elegant 
formula that permits us to return, back to the treasury, 
incomes that we've made from these projects.
    Senator Lautenberg. Wonderful. We congratulate all of you 
for your work.
    Thank you very much, Mr. Chairman.
    The Chairman. I thank the witnesses for being here. We'll 
try to mark up this reauthorization next Tuesday, and hopefully 
we can get it through the Congress before we go out of session. 
I think it's relatively noncontroversial. There is the issue of 
more representation of station managers on the board, but I 
think that's a relatively minor item. And, of course, the issue 
of funding continues to be an issue of some discussion.
    I thank all the witnesses. This hearing is adjourned.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]
                            A P P E N D I X

                                                      July 15, 2004
   Statement of the National Minority Public Broadcasting Consortia: 
 National Asian America Telecommunications Association, National Black 
  Programming Consortium, Latino Public Broadcasting, Native American 
     Public Telecommunications, Pacific Islanders in Communications
    The National Minority Public Broadcasting Consortia submits this 
statement in support of S. 2645, legislation reauthorizing the 
Corporation for Public Broadcasting (CPB). We also recommend that the 
bill be amended to provide additional resources for the production of 
multicultural programming for the public broadcast system.
    Our mission is to bring a significant amount of programming from 
our communities into the mainstream of PBS and public broadcasting. The 
five communities represented by the Minority Consortia--African 
American, Latino, Asian, Pacific Islander, Native American--are 29 
percent of the U.S. population (2000 Census).
The Minority Consortia
    With primary funding from the Corporation for Public Broadcasting, 
the Minority Consortia serves as an important component of American 
public television. By training and mentoring the next generation of 
minority producers and program managers we are able to ensure the 
future strength of public television and radio television programming 
from our communities. Individually, each Consortia organization is 
engaged in cultivating ongoing relationships with the independent 
producer community by providing technical assistance, program funding, 
programming support and distribution. We also provide numerous hours of 
programming to individual public television and radio stations.
    Through our outreach we help bring an awareness of the value of 
public media among communities which have historically been untapped by 
public television. Through innovative outreach campaigns, local 
screenings of works destined for public television, and promotion of 
web-based information and programming, communities of color are 
embraced rather than ignored. The Minority Consortia's work in 
educational distribution further increases the value of public 
television programming by sharing its works with thousands of students.
    While the Consortia organizations work on projects specific to 
their communities, the five organizations also work collaboratively. 
One example is our joint effort on the public television four-part 
series, Matters of Race that aired last fall. That series explored the 
complexity of our rapidly changing multiracial, multicultural society 
in America.. The project resulted in more than television programming. 
The project was designed so that modules could be pulled out for 
classroom use. It was also formatted for radio broadcast and for the 
Internet, and included extended interviews. This project provided a 
great opportunity for extensive and diverse community outreach and 
collaboration throughout its development, distribution, and use.
    We also worked with American Public Television on 6 one-hour 
programs (named Colorvision) featuring the work of Native American, 
Asian American,, Pacific Islander, Latino and African American 
filmmakers and television producers. It is now in national distribution 
for all public television stations.
    The programming we, both as individual organizations and 
collaboratively, help bring to public television is beyond the 
production reach of most local television stations. We support the 
bill's proposal for increased funding for production of local 
programming but believe there is also a great need for increased 
funding for major programming efforts such as those we and other 
independent producers undertake.
    From 1997 to 2002, the Minority Consortia delivered over 88.5 hours 
of quality public television programming. Collectively, we have also 
funded 250 projects and 440 producers/directors. These accomplishments 
have been recognized with over 123 prestigious national and regional 
awards, including numerous Emmys. While most of our work is focused on 
film, of note is that the Native American Public Telecommunications 
(NAPT) also works in the area of public radio. NAPT developed the 
Native American public radio satellite network (AIROS) that provides 
live radio streaming 24 hours a day to over 70 Native American and 
mainstream public radio stations in the U.S. (including Alaska).
CPB Funds
    The National Minority Public Broadcasting Consortia currently 
receives funds from two portions of the CPB budget, organization 
support funds from the Systems Support and programming funds from the 
Television Programming sections. CPB financial support is critical to 
the work of our organizations. We believe that we make a major 
contribution to public broadcasting with a very modest amount of 
funding, but there is so much more that should be done.
    The organizational support funds we receive from CPB are used not 
only for operations requirements but for also for a broad array of 
programming support activities and for outreach to our communities. We 
received $1,850,000 in FY 2004 CPB funds for organizational support 
($370,000 for each organization). This represents 0.48 percent of the 
FY 2004 CPB appropriation. We have received only very small increases 
in operations support funds in the past several years.
    The programming funds we receive from CPB are re-granted to 
producers, used for purchase of broadcast rights and other related 
programming activities. Each organization solicits applications from 
our communities for these programming funds. We received $3,181,815 in 
FY 2004 CPB funds for programming ($636,363 for each organization). 
This represents 0.83 percent (less than one percent) of the FY 2004 CPB 
appropriation. Our CPB programming funds have remained virtually flat 
over the past nine years, despite increases in CPB appropriations.
Recommendations
    The Minority Consortia recommends modest increases in the 
proportion of CPB funds--from the System Support and Programming 
portions of the budget--to support the production of multicultural 
programming. We also welcome any suggestions the Committee may have for 
additional ways in the CPB bill to achieve this goal.
    System Support. While the Minority Consortia currently receives 
funding from the System Support portion of the CPB budget, the 
authorizing statute makes no direct mention of support for the kind of 
contributions we bring to public television and radio. The current law 
notes that funds are for capital costs relating to telecommunications 
satellites, payment of royalties and other fees, interconnection 
facilities, assistance for stations that broadcast in language other 
than English, ``and, if available, funding permits for projects and 
activities that will enhance public broadcasting''. We recommend adding 
to this portion of the statute that one of the activities for which 
funds under this section should be used:

  <bullet> ``for organizations that support the public broadcasting 
        needs of the African American, Latino, Asian, Pacific Islander, 
        and Native American communities through training, production, 
        distribution, promotion, outreach, and funding'', and

  <bullet> ``not less than 1.5 percent of the total CPB appropriations 
        are for the National Minority Public Broadcasting Consortia for 
        activities under this section.''

    Television Programming. The current law states that of funds 
available for television programming, ``a substantial amount shall be 
distributed to independent producers and production entities, and 
producers addressing the needs and interests of minorities for the 
production of programs.'' We are pleased that the S. 2465 would retain 
this language. To it we would add:

  <bullet> ``not less than 2 percent of the total CPB appropriation is 
        for the National Minority Public Broadcasting Consortia for 
        activities under this section.''

    Report on Diversity. The current law requires CPB to publish an 
assessment every three years on the needs of minority and diverse 
audiences and its plans to address these needs. These reports can also 
serve to explain the value of multicultural programming and we are 
pleased that the bill would retain this reporting requirement.
    We will provide the Committee with a copy of our publication, ``The 
Minority Consortia: Bringing New Voices to Public Television'' which 
describes in more detail the contributions made by our organizations, 
individually and collectively, to public broadcasting.
    Thank you for your consideration of our recommendations. We as 
minority communities in public broadcasting see new opportunities to 
increase diversity in programming, production, audience, and employment 
in the new media environment.
                                 ______
                                 
                                                          July 2004
            NATIONAL MINORITY PUBLIC BROADCASTING CONSORTIA
Latino Public Broadcasting
6777 Hollywood Boulevard, Suite 512
Los Angeles, California 90028
Luca Bentivoglio, Executive Director

Native American Public Telecommunications
Box 83111
Lincoln, Nebraska 68501
Frank Blythe, Executive Director

National Asian American Telecommunications Association
145 Ninth Street, Suite 350
San Francisco, California 94103
Eddie Wong, Executive Director

National Black Programming Consortium
145 East 125th Avenue, 4th Floor
New York, New York 10035
Mable Haddock, Executive Director

Pacific Islanders in Communications
1221 Kapiolani Boulevard, #6A4
Honolulu, Hawaii 96814
Carlyn Tani, Executive Director
                                 ______
                                 
   Response to Written Question Submitted by Hon. Byron L. Dorgan to 
                                  PBS
    Question. One of the most important services that public 
broadcasting provides today is quality educational programs for our 
Nation's children.
    When the Corporation for Public Broadcasting was established in the 
late 1960s its goal was to offer programs that weren't available 
anywhere else. But today, with hundreds of channels offering every 
imaginable kind of program, the children's programs are the ingredient 
that differentiate public television from the rest of the media. In 
fact, with the decline of locally-originated programs, many Americans 
would likely consider that children's programs such as Sesame Street 
offer the best justification for continued Federal support of public 
television.
    I would like the Public Broadcasting Service to provide the 
Committee with information that quantifies how much funding is 
currently dedicated to their children's programs. The report should 
delineate the sources and associated amounts from the Corporation for 
Public Broadcasting, the Ready to Learn Program, other Federal 
programs, public television station support, nongovernmental 
fundraising efforts that include foundations and corporate 
sponsorships, and any other sources, so that the resources available to 
ensure the continuation of quality educational children's programs can 
be assessed.
    Answer. PBS appreciates the recognition of and support for its 
quality children's programs and is proud of its record of 35 years of 
offering programs that kids and parents love and trust. PBS continues 
this tradition today.
    As a testament to their quality, PBS children's programs continue 
to win prestigious awards. For example, the year 2004 marked the 
seventh consecutive year that PBS earned more Emmys for its children's 
series than any other broadcast network. Programs including Sesame 
Street, Between the Lions, and Jakers! The Adventures of Piggley Winks 
were among the winners.
    PBS continues to be relevant with new offerings like its PBS KIDS 
GO! block, which debuts on October 11, 2004 with programs and online 
content for early elementary school kids like Maya & Miguel and 
Postcards from Buster, which promote cultural diversity, pro-social 
behaviors, and English language acquisition.
    While children's programming is a marquee product for PBS, we are 
able to feed nine hours of unique children's programming each weekday 
to local stations through the National Program Service for a more 
reasonable investment than it takes to fund some other kinds of 
educational programming. There are a number of efficiencies that 
operate to help stretch children's programming dollars. For example, 
children's programming has the advantage of a long screen life, as the 
audience continually turns over when children outgrow shows and new, 
younger children watch library programming for the first time. In that 
way, fewer new programs need to be created for children than for other 
audiences. PBS also negotiates favorable deal terms, and doing so 
returns money to PBS' National Program Service for additional high-
quality programming.
    PBS' quality programs are funded with monies from a variety of 
sources. The total production cost for PBS children's programs in 
broadcast year 2003 <SUP>*</SUP> was about $74 million. This number 
does not include contributions from the U.S. Department of Education, 
which most recently contributed $8 million for Federal FY 2004. From 
year to year, children's programming costs vary depending on such 
factors as the timing of new program launches and the number of new 
episodes. Following is a breakdown of PBS children's television funding 
for the most recent time periods available.
---------------------------------------------------------------------------
    \*\ ``Broadcast year 2003'' numbers generally reflect funds 
allocated for new programming broadcast during the time period July 
2002 through June 2003 as well as the renewal of distribution rights 
for previously broadcast programs, as reported by program producers to 
PBS.
---------------------------------------------------------------------------
    Public Television. For broadcast year 2003, producing stations 
funded about $5.8 million in children's programming, PBS through its 
National Program Service funded about $19.5 million, and the 
Corporation for Public Broadcasting funded about $6.4 million.
    Producers, Corporate, Foundation. Non-station producer funding 
accounted for about $27.7 million in broadcast year 2003. Corporate 
underwriting accounted for about $8.3 million in broadcast year 2003, 
and foundation support accounted for about $1.7 million.
    Government. For Federal FY 2004, the Department of Education 
contributed $8 million through Ready to Learn for programming such as 
Arthur, Between the Lions, and Sesame Street. For broadcast year 2003, 
National Science Foundation contributions accounted for about $4.4 
million for programming such as Cyberchase and Zoom.
    PBS will continue to be the leader in children's programming, 
expanding into new areas such as the GO! block and supporting every 
program with rich online educational content. Although there are many 
children's offerings provided by other channels, PBS programming is 
unique in its commitment to educational quality and universal access. 
For example, PBS works with experienced educational film or television 
producers who involve children, educational researchers, parents, 
educators, daycare providers, and subject-matter experts in the design 
and production process.
    As a result of our focus on education, PBS is trusted by parents 
and teachers, and is especially popular among homeschoolers. A recent 
study by Harris Interactive found that a majority of American 
caregivers agreed that PBS KIDS offers ``educational programs from 
which (their children) can learn.'' PBS KIDS also received the highest 
overall quality score of any competitor in children's programming, and 
parents felt that PBS is a ``trusted and safe place for children to 
watch television.'' We agree, and we will continue to make quality 
children's programming a priority.
    Thank you for your interest in PBS children's programming.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
